                                                                                                        Vol. 79                           Monday,
                                                                                                        No. 91                            May 12, 2014




                                                                                                        Part III


                                                                                                        Department of Health and Human Services
                                                                                                        Office of Inspector General
                                                                                                        42 CFR Parts 1003 and 1005
                                                                                                        Medicare and State Health Care Programs: Fraud and Abuse; Revisions to
                                                                                                        the Office of Inspector General’s Civil Monetary Penalty Rules; Proposed
                                                                                                        Rule
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00001   Fmt 4717   Sfmt 4717   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27080                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   DEPARTMENT OF HEALTH AND                                to persons without Federal Government                 42 CFR part 1003 to implement
                                                   HUMAN SERVICES                                          identification, commenters are                        authorities under ACA and other
                                                                                                           encouraged to schedule their delivery                 statutes. ACA provides for CMPs,
                                                   Office of Inspector General                             with one of our staff members at (202)                assessments, and exclusion for:
                                                                                                           619–1368.                                                • Failure to grant OIG timely access
                                                   42 CFR Parts 1003 and 1005                                Inspection of Public Comments: All                  to records;
                                                                                                           comments received before the end of the                  • ordering or prescribing while
                                                   RIN 0936–AA04
                                                                                                           comment period will be posted on                      excluded;
                                                   Medicare and State Health Care                          http://www.regulations.gov for public                    • making false statements, omissions,
                                                   Programs: Fraud and Abuse;                              viewing. Hard copies will also be                     or misrepresentations in an enrollment
                                                   Revisions to the Office of Inspector                    available for public inspection at the                application;
                                                   General’s Civil Monetary Penalty Rules                  Office of Inspector General, Department                  • failure to report and return an
                                                                                                           of Health and Human Services, Cohen                   overpayment; and
                                                   AGENCY:  Office of Inspector General                    Building, 330 Independence Avenue                        • making or using a false record or
                                                   (OIG), HHS.                                             SW., Washington, DC 20201, Monday                     statement that is material to a false or
                                                   ACTION: Proposed rule.                                  through Friday from 8:30 a.m. to 4 p.m.               fraudulent claim.
                                                                                                           To schedule an appointment to view                    These statutory changes are reflected in
                                                   SUMMARY:   This proposed rule would                     public comments, phone (202) 619–                     the proposed regulations.
                                                   amend the civil monetary penalty (CMP                   1368.                                                    We also propose a reorganization of
                                                   or penalty) rules of the Office of                      FOR FURTHER INFORMATION CONTACT:                      42 CFR part 1003 to make the
                                                   Inspector General (OIG) to incorporate                  Tony Maida, (202) 619–0335, or Jill                   regulations more accessible to the
                                                   new CMP authorities, clarify existing                   Wright, (202) 619–0335, Office of                     public and to add clarity to the
                                                   authorities, and reorganize regulations                 Counsel to the Inspector General.                     regulatory scheme. We propose an
                                                   on civil money penalties, assessments                                                                         alternate methodology for calculating
                                                                                                           SUPPLEMENTARY INFORMATION:
                                                   and exclusions to improve readability                                                                         penalties and assessments for
                                                   and clarity.                                            EXECUTIVE SUMMARY:
                                                                                                                                                                 employing excluded individuals in
                                                   DATES: To ensure consideration,                         I. Purpose of the Regulatory Action                   positions in which the individuals do
                                                   comments must be delivered to the                       A. Need For Regulatory Action                         not directly bill the Federal health care
                                                   address provided below by no later than                                                                       programs for furnishing items or
                                                   5 p.m. Eastern Standard Time on July                      The Affordable Care Act of 2010                     services. We also clarify the liability
                                                   11, 2014.                                               (Patient Protection and Affordable Care               guidelines under OIG authorities,
                                                   ADDRESSES: In commenting, please
                                                                                                           Act, Pub. L. 111–148, 124 Stat. 119                   including the Civil Monetary Penalties
                                                   reference file code OIG–403–P. Because                  (2010), as amended by the Health Care                 Law (CMPL); the Emergency Medical
                                                   of staff and resource limitations, we                   and Education Reconciliation Act of                   Treatment and Labor Act (EMTALA);
                                                   cannot accept comments by facsimile                     2010, Pub. L. 111–152, 124 Stat. 1029                 section 1140 of the Act for conduct
                                                   (FAX) transmission. However, you may                    (2010), hereafter ACA) significantly                  involving electronic mail, Internet, and
                                                   submit comments using one of three                      expanded OIG’s authority to protect                   telemarketing solicitations; and section
                                                   ways (no duplicates, please):                           Federal health care programs from fraud               1927 of the Act for late or incomplete
                                                     1. Electronically. You may submit                     and abuse. OIG proposes to update its                 reporting of drug-pricing information.
                                                   electronically through the Federal                      regulations to codify the changes made
                                                                                                           by ACA in the regulations. At the same                III. Costs and Benefits
                                                   eRulemaking Portal at http://
                                                   www.regulations.gov. (Attachments                       time, OIG proposes updates pursuant to                  There are no significant costs
                                                   should be in Microsoft Word, if                         the Medicare Prescription Drug,                       associated with the proposed regulatory
                                                   possible.)                                              Improvement, and Modernization Act of                 revisions that would impose any
                                                     2. By regular, express, or overnight                  2003 and other statutory authorities, as              mandates on State, local, or tribal
                                                   mail. You may mail your printed or                      well as technical changes to clarify and              governments or the private sector. OIG
                                                   written submissions to the following                    update the regulations.                               anticipates that CMP collections may
                                                   address: Patrice S. Drew, Office of                     B. Legal Authority                                    increase in the future in light of the new
                                                   Inspector General, Department of Health                                                                       CMP authorities and other changes
                                                                                                              The legal authority, laid out later in             proposed in this rule. However, it is
                                                   and Human Services, Attention: OIG–                     the preamble, for this regulatory action
                                                   403–P, Cohen Building, 330                                                                                    difficult to accurately predict the extent
                                                                                                           is found in the Social Security Act (Act),            of any increase due to a variety of
                                                   Independence Avenue SW., Room                           as amended by ACA. The legal authority
                                                   5541C, Washington, DC 20201.                                                                                  factors, such as budget and staff
                                                                                                           for the proposed changes is listed by the             resources, the number and quality of
                                                     Please allow sufficient time for mailed               parts of Title 42 of the Code of Federal
                                                   comments to be received before the                                                                            CMP referrals or leads, and the length of
                                                                                                           Regulations that we propose to modify:                time needed to investigate and litigate a
                                                   close of the comment period.                               1003: 42 U.S.C. 1320a–7(c), 1320a–7a,
                                                     3. By hand or courier. You may                                                                              case. In calendar years 2004–2013, OIG
                                                                                                           1320b–10, 1395w–27(g), 1395w–                         collected between $10.2 million and
                                                   deliver, by hand or courier, before the                 112(b)(3)(E), 1395w–141(i)(3),
                                                   close of the comment period, your                                                                             $26.2 million in CMP resolutions for a
                                                                                                           1395y(b)(3)(B), 1395dd(d)(1), 1395mm,
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   printed or written comments to: Patrice                                                                       total of over $165.2 million.
                                                                                                           1395nn(g), 1395ss(d), 1396b(m), 1396r–
                                                   S. Drew, Office of Inspector General,                   7(b)(3)(B), 1396r–7(b)(3)(C), 1396t(i)(3),            Discussion
                                                   Department of Health and Human                          11131(c), 11137(b)(2), and 262a.
                                                   Services, Attention: OIG–403–P, Cohen                                                                         I. Background
                                                                                                              1005: 42 U.S.C. 405(a), 405(b), 1302,
                                                   Building, 330 Independence Avenue                       1320a–7, 1320a–7a, and 1320c–5.                         For over 22 years, OIG has exercised
                                                   SW., Room 5541C, Washington, DC                                                                               the authority to impose CMPs,
                                                   20201.                                                  II. Summary of Major Provisions                       assessments, and exclusions in
                                                     Because access to the interior of the                    We propose changes to the Civil                    furtherance of its mission to protect the
                                                   Cohen Building is not readily available                 Monetary Penalties (CMP) regulations at               Federal health care programs and their


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00002   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                            27081

                                                   beneficiaries from fraud, waste, and                    delegated by the Secretary to OIG and                 solely for the purpose of earning a
                                                   abuse. As those programs have changed                   were added to part 1003.                              commission; (4) fails to comply with
                                                   over the last two decades, OIG has                                                                            marketing restrictions described in
                                                                                                           B. The Patient Protection and
                                                   received new fraud-fighting CMP                                                                               sections 1851(h) or (j) of the Act (42
                                                                                                           Affordable Care Act of 2010
                                                   authorities in response, including new                                                                        U.S.C. 1395w–21(h) or (j)) or applicable
                                                   authorities under ACA. With the                            ACA is the most recent expansion of                implementing regulations or guidance;
                                                   addition of new authorities over time,                  the CMP provisions and OIG’s ability to               or (5) employs or contracts with any
                                                   part 1003 has become cumbersome.                        protect Federal health care programs                  person who engages in the conduct
                                                   While adding new authorities, we are                    from fraud and abuse. Sections                        described in section 1857(g)(1).
                                                   also reorganizing part 1003 to improve                  6402(d)(2)(A)(iii) and 6408(a) of ACA                    We propose to codify these new
                                                   its readability and clarity. Lastly, we are             amended the CMPL by adding new                        authorities in the proposed regulations
                                                   also addressing several substantive                     conduct that would subject a person to                at § 1003.400(c) and their corresponding
                                                   issues in our existing authorities.                     penalties, assessments, and/or exclusion              penalties and assessments at § 1003.410.
                                                                                                           from participation in Federal health care             The Centers for Medicare & Medicaid
                                                      This notice of proposed rulemaking is
                                                                                                           programs. The new covered conduct                     Services (CMS) may also impose
                                                   part of a rulemaking identified in the
                                                                                                           includes: (1) Failure to grant OIG timely             sanctions under its authorities related to
                                                   Unified Agenda by the Title ‘‘Medicare
                                                                                                           access to records, upon reasonable                    Medicare Advantage or Part D
                                                   and State Health Care Programs: Fraud
                                                                                                           request; (2) ordering or prescribing                  contracting organizations. Those
                                                   and Abuse; Revisions to the Office of
                                                                                                           while excluded when the excluded                      authorities are at 42 CFR parts 422 and
                                                   Inspector General’s Safe Harbors Under
                                                                                                           person knows or should know that the                  423.
                                                   the Anti-Kickback Statute, Exclusion
                                                                                                           item or service may be paid for by a
                                                   Authorities, and Civil Monetary Penalty                                                                       C. Reorganization of Part 1003
                                                                                                           Federal health care program; (3) making
                                                   Rules.’’ OIG contemplates additional                                                                             As Congress created additional CMP
                                                                                                           false statements, omissions, or
                                                   rulemaking in the following areas:                      misrepresentations in an enrollment or                authorities, corresponding regulations
                                                   Exclusion authorities (42 CFR parts                     similar bid or application to participate             have been added to the existing
                                                   1000, 1001, 1002, 1006, 1007); inflation                in a Federal health care program; (4)                 regulatory structure. Part 1003 is
                                                   adjustment for CMPs (42 CFR part                        failure to report and return an                       currently structured with each basis for
                                                   1003); and safe harbors under the anti-                 overpayment that is known to the                      CMPs and assessments listed in
                                                   kickback statute, a revised definition of               person; and (5) making or using a false               § 1003.102, except CMPs pertaining to
                                                   remuneration in part 1003, and a                        record or statement that is material to a             managed care organizations are listed in
                                                   codified gainsharing CMP (42 CFR                        false or fraudulent claim. See Act,                   § 1003.103(f). Separate sections discuss
                                                   1001.952, 42 CFR part 1003). Each of the                section 1128A(a)(8)–(12). We propose to               the penalty and assessment amounts,
                                                   proposed rules is a stand-alone,                        codify these new authorities and                      exclusion provisions, the factors for
                                                   independent rule, and the public need                   remedies at 42 CFR 1003.200(b)(6)–(10),               determining the appropriate penalty and
                                                   not wait for all of the proposed rules to               1003.210(a)(6)–(9), and 1003.210(b)(3).               assessment amounts, and the factors for
                                                   be published to submit comments on                         Section 6408(b)(2) of ACA amended                  determining whether OIG should
                                                   any one of the proposed rules. Thus,                    section 1857(g)(1) of the Act (42 U.S.C.              impose exclusion. Over time, this
                                                   one can comment meaningfully on this                    1395w–27(g)(1)), which relates to                     structure has become cumbersome. We
                                                   proposed rule without having seen the                   Medicare Advantage and Part D                         propose reorganizing part 1003 to make
                                                   proposed rules concerning exclusion                     contracting organizations. See Act,                   the regulations more accessible to the
                                                   authorities, inflation adjustment for                   section 1860D–12(b)(3)(E) (42 U.S.C.                  public and to add clarity to the
                                                   CMPs, or safe harbors under the anti-                   1395w–112) (incorporating 1857(g) by                  regulatory scheme. Except for general
                                                   kickback statute.                                       reference). Through this amendment to                 and procedural subparts, the
                                                   A. Overview of OIG Civil Monetary                       the Act, ACA made several changes to                  reorganized part 1003 groups CMP
                                                   Penalty Authorities                                     these authorities. First, section                     authorities into subparts by subject
                                                                                                           6408(b)(2) of ACA clarifies that                      matter. This revised structure also
                                                     In 1981, Congress enacted the CMPL,                   penalties, and, where applicable,                     clarifies the differences between the
                                                   section 1128A of the Act (42 U.S.C.                     assessments, may be imposed against a                 various CMP authorities and their
                                                   1320a–7a), as one of several                            Medicare Advantage or Part D                          respective statutory remedies. For
                                                   administrative remedies to combat fraud                 contracting organization when its                     certain CMP authorities, penalties,
                                                   and abuse in Medicare and Medicaid.                     employees or agents, or any provider or               assessments, and exclusion are
                                                   The CMPL authorized the Secretary to                    supplier who contracts with it, engages               authorized. For other CMP authorities,
                                                   impose penalties and assessments on a                   in the conduct described in the CMP                   only penalties, or penalties and
                                                   person, as defined in 42 CFR part 1003,                 authorities in section 1857(g) of the Act.            assessments, are authorized. Each
                                                   who defrauded Medicare or Medicaid or                   This statutory change broadens the                    subpart is intended to be self-contained,
                                                   engaged in certain other wrongful                       general liability of principals for the               with all the relevant provisions
                                                   conduct. The CMPL also authorized the                   actions of their agents under our                     concerning a particular violation
                                                   Secretary to exclude persons from                       existing regulations at § 1003.102(d)(5)              included in the same subpart.
                                                   Medicare and all State health care                      (proposed § 1003.120(c)) to include
                                                   programs (including Medicaid).                          contracting providers and suppliers who               D. Factors Relevant to Determining
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   Congress later expanded the CMPL and                    may not qualify as agents of the                      Amount of Penalty and Assessment and
                                                   the scope of exclusion to apply to all                  contracting organization. ACA also                    Length of Exclusion
                                                   Federal health care programs. The                       provides for penalties and assessments                  As part of the reorganization, we
                                                   Secretary delegated the CMPL’s                          against a Medicare Advantage or Part D                propose modifying the provisions
                                                   authorities to OIG. 53 FR 12,993 (April                 contracting organization that: (1) Enrolls            relating to the factors considered in
                                                   20, 1988). Since 1981, Congress has                     an individual without his or her prior                determining the exclusion period and
                                                   created various other CMP authorities                   consent; (2) transfers an enrollee from               the amount of penalties and assessments
                                                   covering numerous types of fraud and                    one plan to another without his or her                for violations. The present structure
                                                   abuse. These new authorities were also                  prior consent; (3) transfers an enrollee              separately lists factors for certain CMP


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27082                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   violations in § 1003.106(a) and provides                violation on a case-by-case basis. For                some have no intent requirement.
                                                   additional detail on these factors for                  instance, when considering the nature                 Through our extensive enforcement
                                                   certain CMP violations in § 1003.106(b)                 and circumstances of any case, OIG will               history, we have considerable
                                                   and (d). This structure is cumbersome                   consider, among other things and to the               experience in investigating and
                                                   and potentially confusing for the reader.               extent they are relevant, the time period             evaluating scienter evidence and
                                                      To add clarity and improve                           over which the conduct occurred,                      determining a person’s level of intent in
                                                   transparency in OIG’s decision-making                   whether a pattern of misconduct is                    committing the violation. In cases when
                                                   processes, we identified the most                       indicated, the magnitude of the                       the ‘‘knows or should know’’ standard
                                                   common issues among the factors listed                  violation, the materiality or significance            applies, actual knowledge is considered
                                                   and created a single, primary list of                   of a false statement or omission, the                 more egregious than a lower level of
                                                   factors in the proposed § 1003.140. The                 number of people involved, the number                 intent. When the violation has a strict-
                                                   primary factors are: (1) The nature and                 of victims, and whether patients were or              liability standard, OIG evaluates the
                                                   circumstances of the violation, (2) the                 could have been harmed.                               evidence to determine whether the
                                                   degree of culpability of the person, (3)                  The proposed changes also clarify that              violation was the result of reckless
                                                   the history of prior offenses, (4) other                these factors apply to both exclusion                 disregard, actual knowledge, or any
                                                   wrongful conduct, and (5) other matters                 determinations made under part 1003 as                other level of intent. We intend to
                                                   as justice may require. As the fifth factor             well as penalty and assessment amount                 continue this practice and intend the
                                                   demonstrates, these are illustrative                    determinations. We are removing                       general ‘‘degree of culpability’’ factor to
                                                   factors rather than a comprehensive list.               § 1003.7(c) in light of this                          encompass this practice.
                                                   Unlike factors in the current version of                reorganization. The current regulations                  We also propose to clarify that
                                                   the regulation, these factors would                     state, at § 1003.107(c), that the                     possessing a lower level intent to
                                                   apply to all CMP violations, except as                  guidelines regarding exclusion                        commit a violation is not a defense
                                                   otherwise provided in the subpart                       determinations are not binding. This                  against liability, a mitigating factor, or a
                                                   relating to a specific subject matter,                  language was used to emphasize that                   justification for a less serious remedy.
                                                   which may contain additional detail or                  only the reasonableness of a period of                Individuals and entities are expected to
                                                   explanation regarding a factor’s                        exclusion is reviewable on appeal as                  know the law and Federal health care
                                                   applicability to a specific violation. For              opposed to OIG’s decision to impose an                program rules. While the degree of
                                                   example, the aggravating factors                        exclusion. While OIG’s discretion to                  culpability is relevant in our
                                                   currently listed in § 1003.106(b)(1)                    exercise its exclusion authority remains              determination to impose a monetary or
                                                   relate to the nature and circumstances of               unreviewable, the § 1003.107(c)                       exclusion remedy, other factors, such as
                                                   a violation. Because these factors relate               language is no longer necessary under                 the nature and circumstances of the
                                                   most directly to billing issues, the                    the proposed reorganization. The                      violation, may justify a maximum
                                                   proposed regulations include them in                    revisions at § 1003.140 more clearly                  monetary remedy or exclusion to protect
                                                   §§ 1003.220, 1003.320, and 1003.420.                    state that the general guidelines relate to           the Federal health care programs and
                                                   We are proposing updating the claims-                   the length of exclusion as opposed to                 beneficiaries from fraud, waste, and
                                                   mitigating factor by increasing the                     the decision whether to exclude an                    abuse.
                                                   maximum dollar amount considered as                     individual.                                              In addition, we propose to add a
                                                   mitigation from $1,000 to $5,000. We                      At § 1003.106(b)(2), the current                    mitigating circumstance to the degree-
                                                   believe this updated amount is an                       regulations discuss a person’s degree of              of-culpability factor for taking
                                                   appropriate threshold that is consistent                culpability and list several aggravating              ‘‘appropriate and timely corrective
                                                   with rationale behind the original                      circumstances concerning whether a                    action in response to the violation.’’ The
                                                   amount. A dollar threshold as a                         person had knowledge of the violation.                proposed regulation requires that a
                                                   mitigating factor for CMP purposes                      We believe the current language is out-               person, to qualify as taking corrective
                                                   differentiates between conduct that                     of-date in light of all the CMP                       action, disclose the violation to OIG
                                                   could be considered less serious and                    authorities that have been added to part              through the Self-Disclosure Protocol
                                                   more serious. Conduct resulting in more                 1003 over the years. In addition, we                  (Protocol) and fully cooperate with
                                                   than $5,000 in federal health care                      have developed significant experience                 OIG’s review and resolution of the
                                                   program loss is an indication of more                   over the past two decades investigating               violation. We have long emphasized the
                                                   serious conduct. Given the changes in                   CMP cases and, particularly, evaluating               importance of compliance programs that
                                                   the costs of health care since this                     the different levels of knowledge or                  result in appropriate action when
                                                   regulation was last updated in 2002, we                 intent a person may possess. We                       Federal health care program compliance
                                                   believed the $1,000 threshold was lower                 propose to consider as an aggravating                 issues are identified. We continue to
                                                   than appropriate. We are also proposing                 factor a person’s having a level of intent            believe that appropriate action for
                                                   to revise the claims-aggravating factor at              to commit the violation that is greater               potential violations of OIG’s CMP
                                                   1003.106(b)(1)(iii) by replacing                        than the minimum intent required to                   authorities must include self-disclosure
                                                   ‘‘substantial’’ with ‘‘$15,000 or more.’’               establish liability. This new aggravating             and cooperation in the inquiry and
                                                   In assigning a dollar value to the                      factor would more fully reflect our                   resolution of the matter. We do not
                                                   aggravating factor, we considered our                   evaluation of a person’s intent and more              believe that without self-disclosure
                                                   practices in evaluating conduct for                     accurately reflect the different levels of            through the Protocol, the person
                                                   pursuing CMPs and believe that a loss                   intent required under different CMP                   qualifies for mitigation of the potential
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   greater than $15,000 is an indication of                authorities.                                          monetary or exclusion remedies.
                                                   serious misconduct. We also believe                       Various CMP authorities have                           The proposed change clarifies that
                                                   replacing ‘‘substantial’’ with a specific               different intent or scienter requirements.            when we are determining the
                                                   dollar threshold increases transparency                 Some authorities have a ‘‘knows or                    appropriate remedy against an entity,
                                                   and provides better guidance to the                     should know’’ standard consistent with                aggravating circumstances include the
                                                   provider community on OIG’s                             the False Claims Act standard that                    prior offenses or other wrongful conduct
                                                   evaluation of this factor.                              includes actual knowledge, deliberate                 of: (1) The entity itself; (2) any
                                                      OIG will, however, continue to review                ignorance, or reckless disregard. Some                individual who had a direct or indirect
                                                   the facts and circumstances of a                        authorities require only negligence and               ownership or control interest (as


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                            27083

                                                   defined in section 1124(a)(3) of the Act                which are currently found at                          1003.110 Definitions
                                                   (42 U.S.C. 1320a–3)) in the sanctioned                  §§ 1003.105 and 1003.107, into the                       The proposed revision includes
                                                   entity at the time the violation occurred               subparts in which exclusion is                        several changes to the ‘‘Definitions’’
                                                   and who knew, or should have known,                     available: False Claims; Anti-kickback                section, proposed § 1003.110 (current
                                                   of the violation; or (3) any individual                 and Physician Self-Referral; EMTALA;                  § 1003.101), for clarity and readability.
                                                   who was an officer or a managing                        and Beneficiary Inducement. This                      First, we propose to redesignate
                                                   employee (as defined in section 1126(b)                 proposed revision more clearly reflects               § 1003.101 as § 1003.110. We propose to
                                                   of the Act (42 U.S.C. 1320a–5)) of the                  the statutory scheme, which permits                   remove terms from this part that
                                                   entity at the time the violation occurred.              both monetary and exclusion remedies                  duplicate definitions in part 1000 or are
                                                   We also propose to change ‘‘any other                   for these violations.                                 no longer used in this part. We also
                                                   public or private program for                              The proposed changes clarify in each               propose clarifying the definition of
                                                   reimbursement for medical services’’ to                 subject matter subpart that we may                    ‘‘knowingly,’’ currently found at
                                                   ‘‘in connection with the delivery of a                  impose a penalty for each individual                  § 1003.102(e), to cover acts as opposed
                                                   health care item or service.’’ This                     violation of the applicable provision. As             to information.
                                                   change broadens the types of prior                      we explain below, the statutory
                                                   offenses or conduct that we may                         authorities are clear that each act that              Claim
                                                   consider to include private insurance                   constitutes a violation is subject to                    We propose to revise the definition of
                                                   fraud in addition to other offenses that                penalties. The proposed revisions to the              ‘‘claim’’ by changing the word ‘‘to’’ in
                                                   have a nexus to the delivery of health                  regulatory language better reflect this               the current definition to ‘‘under.’’ This
                                                   care items or services. Also, this                      statutory framework.                                  change more closely aligns the
                                                   proposed change would be consistent                        Throughout part 1003, we propose                   regulations to the CMPL’s definition of
                                                   with the aggravating circumstance                       replacing references to Medicare and                  ‘‘claim’’ to avoid any misinterpretation
                                                   ‘‘other wrongful conduct’’ at proposed                  State health care programs with                       that a claim is limited to an application
                                                   § 1003.140(a)(4).                                       ‘‘Federal health care programs’’ when                 for payment for an item or service made
                                                      Finally, the proposed rule would                     the provision concerns exclusion to                   directly to a Federal health care program
                                                   clarify when OIG considers the financial                more completely reflect the full scope of             (e.g., a claim also includes applications
                                                   condition of a person in determining                    exclusion. The proposed changes also                  for payment to contractors).
                                                   penalty or assessment amounts. The                      remove all references to the penalties
                                                   current regulations discuss financial                   and assessments available before 1997                 Contracting Organization
                                                   condition in various sections with                      because any conduct prior to 1997 falls                  We propose to update the definition
                                                   varying degrees of specificity:                         outside the CMPL’s statute of                         of ‘‘contracting organization’’ to include
                                                   § 1003.106(a)(1)(iv); (a)(3)(i)(F);                     limitations.                                          all entities covered by sections 1857,
                                                   (a)(4)(iv); (b)(5); and (d)(4). We propose                 The proposed changes clarify that a                1860D–12, 1876(b) (42 U.S.C.
                                                   a more uniform and specific standard to                 principal’s liability for the acts of its             1395mm(b)), or 1903(m) of the Act.
                                                   apply after OIG evaluates the facts and                 agents does not limit liability only to the
                                                   circumstances of the conduct and                        principal. Agents are still liable for their          Item or Service
                                                   weighs the aggravating and mitigating                   misconduct. In our enforcement                           We propose revisions to the definition
                                                   factors to determine an appropriate                     litigation, we have encountered the                   of the term ‘‘item or service.’’ Section
                                                   penalty and assessment amount. Once                     argument that agents are not liable for               1128A of the Act provides that the term
                                                   OIG proposes this penalty and                           their misconduct where the principal is               ‘‘item or service’’ ‘‘includes’’ various
                                                   assessment amount, the person may                       liable for the same misconduct. We                    items, devices, supplies, and services.
                                                   request that OIG consider its ability to                believe the current law provides that the             By using the word ‘‘includes’’ in section
                                                   pay the proposed amount. To permit                      agent remains liable for his or her                   1128A, Congress created an illustrative
                                                   OIG to evaluate a person’s ability to pay,              conduct and may not use the principal                 statutory definition that is broad enough
                                                   the person must submit sufficient                       as a liability shield. The proposed                   to capture all the uses of the term in
                                                   documentation that OIG deems                            revision clarifies this point. In addition,           section 1128A of the Act. The term is
                                                   necessary to conduct its review,                        we propose to consolidate the current                 used in section 1128A of the Act in two
                                                   including audited financial statements,                 § 1003.102(d)(1)–(4), which addresses                 different contexts: One, in reference to
                                                   tax returns, and financial disclosure                   situations in which multiple parties                  submitting claims for items and services
                                                   statements. This ability to pay review                  may have liability for separate CMP                   reimbursed by a Federal health care
                                                   may also consider the ability of the                    provisions. This proposed revision                    program, and two, in the definition of
                                                   person to reduce expenses or obtain                     clarifies that each party may be held                 ‘‘remuneration’’ to beneficiaries in
                                                   financing to pay the proposed penalty                   liable for any applicable penalties and               reference to section 1128A(a)(5) of the
                                                   and assessment. If a person requested a                 that the parties may be held jointly and              Act. We propose clarifying the
                                                   hearing in accordance with 42 CFR                       severally liable for the assessment.                  definition to ensure that it reflects the
                                                   1005.2, the only financial                                                                                    broad meaning of ‘‘item or service’’ in
                                                                                                           II. Provisions of the Proposed Rule
                                                   documentation subject to review would                                                                         both contexts.
                                                   be that which the person submitted to                   A. Civil Monetary Penalty Authorities
                                                                                                                                                                 Knowingly
                                                   OIG, unless the ALJ finds that
                                                                                                           Subpart A—General Provisions                             We also propose removing the
                                                   extraordinary circumstances prevented
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   the person from providing the financial                   Subpart A contains the general                      reference to the False Claims Act from
                                                   documentation to the OIG in the time                    provisions that apply to part 1003. The               the definition of ‘‘knowingly’’ because it
                                                   and manner requested by the OIG prior                   proposed changes revise the ‘‘Basis and               is unnecessary. As used in part 1003,
                                                   to the hearing request.                                 Purpose’’ section to state more                       the term ‘‘knowingly’’ applies only to
                                                                                                           succinctly part 1003’s purpose and to                 acts, such as the act of presenting a
                                                   E. Technical Changes and Clarifications                 include a complete listing of CMPs. We                claim. When a person’s awareness or
                                                     Because we intend each subpart to be                  also propose updates to statutory                     knowledge of information is at issue, the
                                                   self-contained, we propose                              authority citations at proposed                       CMPL and other statutes use either a
                                                   incorporating the exclusion sections,                   § 1003.100(a)–(b).                                    ‘‘knows or should know’’ or a ‘‘knew or


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27084                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   should have known’’ construction.                       aggravating and mitigating factors that               the current regulations describing false
                                                   ‘‘Knowingly’’ is defined at section                     OIG would consider when determining                   or fraudulent claims at § 1003.102(a)(2).
                                                   1128A(i)(7) of the Act. For example,                    penalty and assessment amounts and                    Because of our desire to improve the
                                                   section 1128A(a)(2) of the Act subjects                 periods of exclusion in proposed                      clarity of the regulations generally and
                                                   a person to liability when the person                   § 1003.140. Proposed § 1003.140(c)–(d)                because of the proposed penalty and
                                                   knowingly presents, or causes to be                     clarifies that if any single aggravating              assessment provisions discussed below,
                                                   presented, a claim that the person knew                 circumstance is present: (1) The                      the proposed regulation would address
                                                   or should have known is false or                        imposition of a penalty and assessment                section 1128A(a)(6) of the Act in a
                                                   fraudulent. Here, the act is presenting                 at or close to the maximum amount may                 separate subsection at § 1003.200(b)(4).
                                                   the claim or causing the claim to be                    be justified and (2) if exclusion is                     On the basis of our lengthy experience
                                                   presented. The information is that the                  available, the person should be                       enforcing section 1128A(a)(6) of the Act,
                                                   claim was false or fraudulent.                          excluded.                                             we are proposing an alternate
                                                   Material                                                1003.150 Delegation of Authority                      methodology for calculating penalties
                                                                                                                                                                 and assessments. This alternate
                                                     We propose a definition of ‘‘material’’                  The proposed rule also adds an                     methodology recognizes the variety of
                                                   that mirrors the False Claims Act                       express delegation of authority from the              ways in which items and services are
                                                   definition.                                             Secretary to OIG to impose penalties,                 reimbursed by Federal health care
                                                                                                           assessments, and exclusions against                   programs and the numerous types of
                                                   Overpayment                                             persons that violate any of the                       health care professionals and other
                                                      We propose a definition of                           provisions of part 1003. Currently,                   individuals and entities that contribute
                                                   ‘‘overpayment’’ that is taken from                      several Federal Register notices and                  to the provision of those items and
                                                   section 1128J(d)(4) of the Act (42 U.S.C.               delegation letters, spanning over 20                  services.
                                                   1320a–7k(d)(4)), as amended by section                  years, delegate various authorities to
                                                                                                                                                                    Excluded individuals and entities
                                                   6402(a) of ACA.                                         OIG. Some of these older notices and
                                                                                                                                                                 may be involved in providing items and
                                                                                                           letters are no longer easily accessible by
                                                   Reasonable Request                                                                                            services in two ways. First, an excluded
                                                                                                           the public, such as 53 FR 12,993 (April
                                                                                                                                                                 person may provide items or services
                                                      We propose a definition of                           20, 1998). This provision, at proposed
                                                                                                                                                                 that are identifiable on claims submitted
                                                   ‘‘reasonable request’’ as part of                       § 1003.150, reiterates OIG’s existing
                                                                                                                                                                 by the person or another person (i.e.,
                                                   implementing the new ACA CMP                            authority to pursue these matters.
                                                                                                                                                                 separately billable items or services).
                                                   authority for failure to grant OIG timely               1003.160 Waiver of Exclusion                          These include items or services for
                                                   access to records, as discussed below
                                                                                                             We also propose changes to part                     which the excluded person may directly
                                                   under § 1003.200, Subpart B.
                                                                                                           1003’s exclusion-waiver provisions to                 bill under such person’s provider
                                                   Responsible Official and Select Agent                   clarify the criteria for a waiver request             number or where the person assigned
                                                   Program                                                 from a State agency. Currently, the                   their provider number to another entity,
                                                      We propose definitions of                            regulations state that OIG will consider              such as an employer. In this case, the
                                                   ‘‘Responsible Official’’ and ‘‘Select                   an exclusion waiver request from a State              items or services for which no payment
                                                   Agent Program’’ as these terms relate to                agency for exclusions imposed pursuant                may be made are identifiable because
                                                   the select agent and toxin CMP                          to 42 CFR 1003.102(a), (b)(1), and (b)(4)             the claims should include the identity
                                                   authority. We propose to amend the                      and 1003.105(a)(1)(ii) under certain                  of the person that provided the item or
                                                   definition of ‘‘select agent and toxin’’ as             circumstances. We propose updating the                service. For example, the performing
                                                   the term relates to the select agent and                regulations to permit an administrator of             physician’s provider number should be
                                                   toxin CMP authority (42 U.S.C. 262a(i);                 a Federal health care program to request              listed on claims for office visits. If the
                                                   Act, section 1128A(j)(2)).                              a waiver, similar to the waiver in part               performing physician is excluded, then
                                                                                                           1001. Also, we propose removing the                   the entire claim for the office visit is
                                                   Responsible Physician                                   limitations concerning when a waiver                  prohibited.
                                                     We also propose revising the                          may be requested by such administrator.                  An excluded person may also
                                                   definition of ‘‘responsible physician’’ to                                                                    provide, furnish, order, or prescribe
                                                                                                           Subpart B—CMPs, Assessments, and                      items or services that are billed by
                                                   more closely conform to statutory
                                                                                                           Exclusions for False or Fraudulent                    another person, who also is involved in
                                                   intent, as discussed below under
                                                                                                           Claims and Other Similar Misconduct                   providing the item or service. In this
                                                   § 1003.500, Subpart E.
                                                                                                             Subpart B contains most of the                      situation, the claim itself may not
                                                   Separately Billable Item or Service and                 provisions found in the current                       identify the excluded person by name or
                                                   Non-Separately-Billable Item or Service                 regulations at § 1003.102(a) and several              provider number. For example, a claim
                                                      We also propose definitions of                       of the provisions in the current                      for a prescription drug may not include
                                                   ‘‘separately billable item or service’’ and             § 1003.102(b). The text of the proposed               the identity of the prescribing physician
                                                   ‘‘non-separately-billable item or                       provisions remains largely unchanged                  or dispensing pharmacist. The claim for
                                                   service’’ to create an alternate method                 from the current version, except for a                the prescription drug is a separately
                                                   for calculating penalties and                           separate provision we created to address              billable item because it is an item for
                                                   assessments for violations of section                   section 1128A(a)(6) of the Act. Section               which an identifiable payment is made.
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   1128A(a)(6) of the Act, as discussed                    1128A(a)(6) of the Act subjects persons               If either the prescribing physician or the
                                                   below.                                                  to liability for arranging or contracting             dispensing pharmacist is excluded, the
                                                                                                           with (by employment or otherwise) a                   claim for the drug is prohibited. The
                                                   1003.140 Determinations Regarding                       person that the person knows or should                same would be true for a physician who
                                                   the Amount of Penalties and                             know is excluded from participation in                orders a diagnostic test. If the physician
                                                   Assessments and the Period of                           a Federal health care program for the                 who orders the diagnostic test is
                                                   Exclusion                                               provision of items or services for which              excluded, the claim for the test is
                                                     As explained above, the proposed                      payment may be made under that                        prohibited regardless of who provides
                                                   regulation would consolidate the                        program. This authority is included in                and bills for the test.


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00006   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                          27085

                                                      The second way an excluded                           separately billable to the Federal health             based penalty provisions of section
                                                   individual or entity may be involved in                 care programs, but are reimbursed by                  1128A, the number of penalties
                                                   providing items and services is through                 the Federal health care program in some               increases by the number of claims
                                                   non-separately billable items or                        manner as part of the item or service                 submitted. We propose that similarly
                                                   services. Many health care professionals                claimed.                                              the number of penalties increase by the
                                                   and other individuals and entities are                     To achieve this distinction, we                    number of days the prohibited
                                                   involved in providing items and                         propose to define two new terms:                      relationship with the excluded person
                                                   services that are included within the                   ‘‘separately billable item or service’’ and           existed.
                                                   federal health care program’s payment                   ‘‘non-separately-billable item or                       We believe the cost-based assessment
                                                   for the item or service. In the physician               service.’’ A ‘‘separately billable item or            achieves the purposes of section
                                                   office visit example, the nurse employed                service’’ is defined as ‘‘an item or                  1128A(a)(6) of the Act by capturing the
                                                   by the physician also contributes to the                service for which an identifiable                     value of the excluded person to the
                                                   office visit paid for by the programs.                  payment may be made under a Federal                   employing or contracting person. The
                                                   The nurse’s services are not separately                 health care program.’’ This type of item              value of an excluded person includes,
                                                   billable, but are included as part of the               or service exists when a person                       but is not limited to, salary, health
                                                   claim made for the office visit and are                 provides, furnishes, orders, or                       insurance, disability insurance, and
                                                   included in the program’s                               prescribes an identifiable item or service            employer taxes paid related to the
                                                   reimbursement.                                          for which a claim for reimbursement                   employment of the individual (e.g.,
                                                      We interpret ‘‘the provision of items                may be made to a Federal health care                  employer’s share of Federal Insurance
                                                   or services’’ to include furnishing,                    program, e.g., a physician office visit, by           Contributions Act (FICA) and Medicare
                                                   providing, ordering, or prescribing an                  either the person or another person.                  taxes). The health care industry has
                                                   item or service. Thus, an excluded                         A ‘‘non-separately-billable item or                been on notice for over a decade that
                                                   pharmacist furnishes or provides every                  service’’ is defined as ‘‘an item or                  employing or contracting with excluded
                                                   prescription that he or she fills. Each                 service that is a component of, or                    persons who provide items or services
                                                   prescription is separately billable, and                otherwise contributes to the provision                paid for by the Federal health care
                                                   under the CMPL, OIG may collect the                     of, an item or service, but is not itself             programs is prohibited. See Special
                                                   full amount of each prescription the                    a separately billable item or service.’’              Advisory Bulletin on the Effect of
                                                   pharmacist fills while excluded. This                   Non-separately-billable items or services             Exclusion From Participation in Federal
                                                   analysis extends to each person who is                  are reimbursed as part of the claim                   Health Care Programs, 64 FR 52,791
                                                   in the supply chain or who has a role                   submitted under the applicable payment                (Sept. 30, 1999). We also recognize,
                                                   in the process that leads to an item or                 methodology, e.g., nursing services                   however, that billable items or services
                                                   a service provided. For example, a                      associated with a physician office visit,             generally include numerous non-
                                                   manufacturer, a wholesaler, and a                       care covered by the skilled nursing                   separately-billable items or services.
                                                   distributer have all participated in                    facility per diem payment, nursing care               The involvement of one excluded
                                                   providing an item or a service.                         covered by a hospital diagnosis-related               person can cause the entire claim to be
                                                      Difficulties exist in determining the                group (DRG) payment, or radiology                     prohibited when a number of other
                                                   appropriate penalty and assessment                      technician services associated with a                 individuals and entities that were not
                                                   amount for claims that are not                          specific procedure.                                   excluded may have been involved in the
                                                   separately billable by the excluded                        In instances when the item or service              claim. Through the proposed regulation,
                                                   person. The Federal health care                         provided by the excluded person is                    we seek to avoid this disproportionate
                                                   programs’ movement to various forms of                  separately billable, the employing or                 result for purposes of calculating the
                                                   bundled and prospective payment has                     contracting person would continue to be               assessment. We believe that the total
                                                   increased these difficulties over time. In              subject to penalties and assessments                  costs paid by the employing or
                                                   light of these changes, the involvement                 based on the number and value of those                contracting person with respect to the
                                                   of a single excluded person could cause                 separately billable items and services.               excluded person appropriately
                                                   the total bundled claim or prospective                  For instances when the item or service                represents the value of non-separately-
                                                   payment to be prohibited. When the                      provided by the excluded person is non-               billable items or services that the
                                                   excluded person provides items and                      separately-billable, we propose an                    excluded person provided during his,
                                                   services that are not separately billable,              alternate methodology to calculate                    her, or its period of employment or
                                                   prohibiting the entire payment could                    penalties and assessments. Penalties                  contract.
                                                   lead to disproportionate assessment                     would be based on the number of days                    As discussed above, ACA added five
                                                   amounts in comparison to the harm to                    the excluded person was employed, was                 new violations and corresponding
                                                   the programs. We believe the proposed                   contracted with, or otherwise arranged                penalties to the CMPL. These new
                                                   alternate methodology achieves the                      to provide non-separately-billable items              violations and the corresponding
                                                   purpose of section 1128A(a)(6) of the                   or services. Assessments would be                     penalties are at proposed
                                                   Act while recognizing the programs’                     based on the total costs to the employer              §§ 1003.200(b)(6)–(10), 1003.210(a)(6)–
                                                   various reimbursement methods and the                   or contractor of employing or                         (9), and 1003.210(b)(3). The proposed
                                                   different types of individuals and                      contracting with the excluded person                  regulatory text closely mirrors the
                                                   entities that may be involved in                        during the exclusion, including salary,               statutory text. However, section
                                                   providing items and services.                           benefits, and other money or items of                 6402(d)(2)(A) of ACA amends the CMPL
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                      The proposed regulations address                     value.                                                by adding a violation for knowingly
                                                   how penalties and assessments will be                      We believe the per-day penalty would               making or causing to be made ‘‘any false
                                                   imposed for two distinct types of                       achieve the purposes of section                       statement, omission, or
                                                   violations: (1) Instances when items or                 1128A(a)(6) of the Act by penalizing the              misrepresentation of a material fact in
                                                   services provided by the excluded                       act of employing or otherwise                         any application, bid, or contract to
                                                   person may be separately billed to the                  contracting with the excluded person in               participate or enroll as a provider of
                                                   Federal health care programs and (2)                    proportion to the number of days the                  services or a supplier under a Federal
                                                   instances when the items or services                    prohibited relationship with the                      health care program.’’ (Emphasis
                                                   provided by the excluded person are not                 excluded person existed. In the claims-               added.) ACA does not, however, include


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00007   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27086                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   the word ‘‘omission’’ in its description                exclusion under section 1128(b)(12) of                Subpart C—CMPs, Assessments, and
                                                   of the penalty and assessment for this                  the Act or penalties and/or exclusion                 Exclusions for Anti-Kickback and
                                                   violation. In order to give full effect to              under section 6408(a)(2) of ACA. In                   Physician Self-Referral Violations
                                                   the amendment adding ‘‘omission’’ to                    drafting regulations pursuant to section                 Subpart C contains the anti-kickback
                                                   the CMPL, OIG believes the word                         6408(a)(2) of ACA, we evaluated the                   and physician self-referral provisions,
                                                   ‘‘omission’’ must also be included in the               conduct covered by section 1128(b)(12)                which are found in the current
                                                   penalty and assessment sections.                        to ensure that this proposed rule is                  regulations at § 1003.102(a)(5), (b)(9),
                                                      Also, we propose clarifying the                      consistent with § 1001.1301.                          (b)(10), and (b)(11). The proposed
                                                   penalty at section 1128A of the Act, as
                                                                                                              The proposed definitions of ‘‘failure              changes include various technical
                                                   amended by section 6402(d)(2) of ACA,
                                                                                                           to grant timely access’’ and ‘‘reasonable             corrections to improve readability and
                                                   for failure to report and return
                                                                                                           request’’ give OIG flexibility to                     ensure consistency with the statutory
                                                   overpayments. Under the amended
                                                                                                           determine the time period in which a                  language.
                                                   section 1128J(d) of the Act,
                                                                                                                                                                    We propose revising the provisions
                                                   overpayments must be reported and                       person must respond to a specific
                                                                                                                                                                 relating to the physician self-referral law
                                                   returned by the later of 60 days after the              request for access depending on the
                                                                                                                                                                 to incorporate statutory terms that are
                                                   date the overpayment was identified or                  circumstances. Given the different                    unique to this statute (section 1877 of
                                                   the date any corresponding cost report                  purposes for which OIG may request                    the Act (42 U.S.C. 1395nn)). These
                                                   is due, if applicable. The new CMPL                     access to material, such as audits,                   revisions include using ‘‘designated
                                                   authority under section 1128A(a)(10) of                 evaluations, investigations, and                      health service’’ instead of ‘‘item or
                                                   the Act does not contain a specific                     enforcement actions, we believe the best
                                                   penalty amount, but instead uses the                                                                          service’’ and ‘‘furnished’’ instead of
                                                                                                           approach to defining these terms is for               ‘‘provided.’’ In addition, we propose
                                                   default penalty amount in the CMPL,                     OIG to specify the date for production
                                                   which is up to $10,000 for each item or                                                                       revising the authority regarding ‘‘cross-
                                                                                                           or access to the material in the OIG’s                referral arrangements’’ in the current
                                                   service. In this context, we have
                                                                                                           written request. In making this decision,             regulations at § 1003.102(b)(10) to more
                                                   proposed regulatory text interpreting the
                                                                                                           OIG will consider the circumstances of                closely reflect the statutory language.
                                                   CMPL’s default penalty as up to $10,000
                                                   for each day a person fails to report and               the request, including the volume of                  Section 1877(g)(4) of the Act provides
                                                   return an overpayment by the deadline                   material, size and capabilities of the                for CMPs and exclusion against any
                                                   in section 1128J(d) of the Act. Because                 party subject to the request, and OIG’s               physician or other person that enters
                                                   the act that creates liability under                    need for the material in a timely way to              into any arrangement or scheme (such
                                                   section 1128A(a)(10), failing to report                 fulfill its responsibilities. The exception           as a cross-referral arrangement) that the
                                                   and return overpayments within 60 days                  to this approach is a case when OIG has               physician or other person knows, or
                                                   of identification, is based on the 60-day               reason to believe that the requested                  should know, has a principal purpose of
                                                   period passing, we believe that the                     material is about to be altered or                    ensuring referrals by the physician to a
                                                   penalty could be interpreted to attach to               destroyed. Under those circumstances,                 particular person that, if the physician
                                                   each following day that the                             timely access means access at the time                directly made referrals to such person,
                                                   overpayment is retained. However, we                    the request is made. This exception is                would violate the prohibitions of 42
                                                   note that Congress specified a per day                  the same as provided in § 1001.1301.                  CFR 411.353. The current regulations, at
                                                   penalty in sections 1128A(a)(4) and (12)                                                                      § 1003.102(b)(10)(i), contain an example
                                                                                                              Finally, we propose revisions to the               of a cross-referral arrangement whereby
                                                   and did not do so for section
                                                                                                           current regulation’s aggravating factors              the physician-owners of entity ‘‘X’’ refer
                                                   1128A(a)(10). Thus, we also solicit
                                                   comments on whether to interpret the                    for these violations. The aggravating                 to entity ‘‘Y’’ and the physician-owners
                                                   default penalty of up to $10,000 for each               factors listed in proposed § 1003.220 are             of entity ‘‘Y’’ refer to entity ‘‘X’’ in
                                                   item or service as pertaining to each                   based on those that apply to the                      violation of 42 CFR 411.353. While this
                                                   claim for which the provider or supplier                violations in the current regulations. We             is one example of a cross-referral
                                                   identified an overpayment.                              propose moving the aggravating factors                arrangement, cross-referral
                                                      Section 6408(a)(2) of ACA amends the                 to one section and consolidating similar              arrangements and circumvention
                                                   CMPL by adding a violation for failure                  factors into one factor. For instance, the            schemes can take a variety of forms. The
                                                   to grant timely access, upon reasonable                 first aggravating factor, i.e., the                   proposed changes to the regulatory
                                                   request, to OIG for the purpose of                      violations were of several types or                   language more closely align the
                                                   audits, investigations, evaluations, or                 occurred over a lengthy period of time,               regulations to the statute to avoid any
                                                   other statutory functions. Section                      is found at current § 1003.106(b)(1)(i).              misinterpretation that
                                                   1128(b)(12) of the Act and 42 CFR                       We interpret the phrase ‘‘several types’’             § 1003.102(b)(10)(i) limits the conduct
                                                   1001.1301 currently authorize exclusion                 to include, but not be limited to, billing            that circumvents the prohibitions of the
                                                   based on similar, but not identical,                    for services that are covered by different            physician self-referral law.
                                                   conduct-failure to grant immediate                      billing codes. The final aggravating                     The proposed changes also include
                                                   access. We believe Congress expanded                                                                          minor technical corrections to the anti-
                                                                                                           factor relates to the amount or type of
                                                   OIG’s authority to exclude, and created                                                                       kickback statute authorities to improve
                                                                                                           financial, ownership, or control interest,
                                                   an authority to impose a penalty, in a                                                                        consistency with the statute. First, we
                                                                                                           or the degree of responsibility a person              added the phrases ‘‘to induce’’ and ‘‘in
                                                   broader set of circumstances than
                                                                                                           has in an entity with respect to actions
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   covered by section 1128(b)(12) of the                                                                         whole and in part’’ to § 1003.300(d) to
                                                   Act by using the phrase ‘‘timely access’’               brought under § 1003.200(b)(3). While                 better mirror the statutory language. The
                                                   in section 6408(a)(2) of ACA. Thus, we                  we will consider whether a person is a                proposed change also clarifies that the
                                                   believe conduct that implicates section                 CEO or a manager, job titles alone will               anti-kickback CMP statute, at sections
                                                   1128(b)(12) of the Act is a subset of the               not guide our consideration of this                   1128B(b) and 1128A(a)(7) of the Act,
                                                   conduct implicated by the new CMPL                      factor; we will look at the degree of                 permits imposing a penalty for each
                                                   authority created by section 6408(a)(2)                 responsibility and influence that a                   offer, payment, solicitation, or receipt of
                                                   of ACA. In these situations, OIG has the                person has in an entity.                              remuneration and that each action
                                                   discretion to choose whether to pursue                                                                        constitutes a separate violation. In


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00008   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                             27087

                                                   addition, we include the statutory                      1857, 1860D–12, or 1876. Section                         Under section 1867(d) of the Act,
                                                   language stating that the calculation of                1003.400(c) violations apply to                       participating hospitals and responsible
                                                   the total remuneration for purposes of                  Medicare Advantage and Part D                         physicians may be liable for CMPs of up
                                                   an assessment does not consider                         contracting organizations, i.e., those                to $50,000 ($25,000 for hospitals with
                                                   whether any portion of the                              with contracts under sections 1857 or                 fewer than 100 State-licensed and
                                                   remuneration had a lawful purpose.                      1860D–12 of the Act. Section                          Medicare-certified beds) for each
                                                                                                           1003.400(d) violations apply to                       negligent violation of their respective
                                                   Subpart D—CMPs and Assessments for
                                                                                                           Medicare Advantage contracting                        EMTALA obligations. Responsible
                                                   Misconduct by a Managed Care
                                                                                                           organizations, i.e., those with contracts             physicians are also subject to exclusion
                                                   Organization
                                                                                                           under section 1857 of the Act. Section                for committing a gross and flagrant or
                                                     Subpart D contains the proposed                       1003.400(e) violations apply to                       repeated violation of their EMTALA
                                                   provisions for penalties and assessments                Medicaid contracting organizations, i.e.,             obligations. OIG’s regulations
                                                   against managed care organizations. We                  those with contracts under section                    concerning the EMTALA CMPs and
                                                   propose several stylistic changes to the                1903(m) of the Act.                                   exclusion are currently at 42 CFR
                                                   regulations currently listed at                                                                               1003.102(c), 103(e) and 106(a)(4) and
                                                                                                              We also propose to remove the
                                                   § 1003.103(f). We changed the verbs in                                                                        (d).
                                                                                                           definition of ‘‘violation,’’ which is
                                                   this subpart from past tense to present                                                                          We propose several clarifications to
                                                                                                           currently found at § 1003.103(f)(6),
                                                   tense to conform to the statutory                                                                             the EMTALA CMP regulations. First, as
                                                                                                           because throughout this part, violation
                                                   authorities and many other regulations                                                                        part of our proposed general
                                                                                                           means each incident or act that violates
                                                   in this part. The proposed regulation                                                                         reorganization, we have included the
                                                                                                           the applicable CMP authority. We also
                                                   also removes superfluous phrases, such                                                                        EMTALA authorities within a separate
                                                                                                           propose including aggravating
                                                   as ‘‘in addition to or in lieu of other                                                                       subpart. Further, the proposed revision
                                                                                                           circumstances to be used as guidelines
                                                   remedies available under law.’’ The                                                                           removes outdated references to the pre-
                                                                                                           for taking into account the factors listed
                                                   proposed regulation replaces references                                                                       1991 ‘‘knowing’’ scienter requirement.
                                                   to ‘‘an individual or entity’’ with ‘‘a                 in proposed § 1003.140. These
                                                                                                                                                                 We also propose minor revisions to
                                                   person’’ because ‘‘person’’ is defined in               aggravating circumstances are adapted
                                                                                                                                                                 clarify that the CMP may be assessed for
                                                   the general section as an individual or                 from those listed in the current
                                                                                                                                                                 each violation of EMTALA and that all
                                                   entity. The proposed regulation also                    regulations at §§ 1003.106(a)(5) and
                                                                                                                                                                 participating hospitals subject to
                                                   removes the phrase ‘‘for each                           1003.106(b)(1) and those published in
                                                                                                                                                                 EMTALA, including those with
                                                   determination by CMS.’’ OIG may                         the Federal Register in July 1994. 59 FR
                                                                                                                                                                 emergency departments and those with
                                                   impose CMPs in addition to or in place                  36072 (July 15, 1994).
                                                                                                                                                                 specialized capabilities or facilities, are
                                                   of sanctions imposed by CMS under its                   Subpart E—CMPs and Exclusions for                     subject to penalties.
                                                   authorities.                                            EMTALA Violations                                        As discussed above, we propose
                                                     We also added to the regulations                                                                            revising the ‘‘responsible physician’’
                                                   OIG’s authority to impose CMPs against                     Subpart E contains the penalty and                 definition to clarify that on-call
                                                   Medicare Advantage contracting                          exclusion provisions for violations of                physicians at any participating hospital
                                                   organizations pursuant to section                       EMTALA, section 1867 of the Act (42                   subject to EMTALA, including the
                                                   1857(g)(1) of the Act and against Part D                U.S.C. 1395dd). EMTALA, also known                    hospital the individual initially
                                                   contracting organizations pursuant to                   as the patient antidumping statute, was               presented to and the hospital with
                                                   section 1860D–12(b)(3) of the Act.                      passed in 1986 as part of the                         specialized capabilities or facilities that
                                                     As discussed above, ACA amended                       Consolidated Omnibus Budget                           has received a request to accept an
                                                   several provisions of the Act that apply                Reconciliation Act of 1985 (COBRA),                   appropriate transfer, face potential CMP
                                                   to misconduct by Medicare Advantage                     Public Law 99–272. Section 1867 of the                and exclusion liability under EMTALA.
                                                   or Part D contracting organizations. We                 Act sets forth the obligations of a                      Section 1867(d) of the Act provides
                                                   have included these provisions in the                   Medicare-participating hospital to                    that any physician who is responsible
                                                   proposed regulations. We added the                      provide medical screening examinations                for the examination, treatment, or
                                                   change in section 6408(b)(2)(C) of ACA                  to individuals who come to the                        transfer of an individual in a
                                                   regarding assessing penalties against a                 hospital’s emergency department and                   participating hospital, including any
                                                   Medicare Advantage or Part D                            request examination or treatment for a                physician on-call for the care of such an
                                                   contracting organization when its                       medical condition. EMTALA further                     individual, and who negligently violates
                                                   employees or agents, or any provider or                 provides that if the individual has an                section 1867 may be penalized under
                                                   supplier that contracts with it, violates               emergency medical condition, the                      section 1867(d)(1)(B). The current
                                                   section 1857. We propose to add the five                hospital is obligated to stabilize that               definition of ‘‘responsible physician’’
                                                   new violations created in ACA, and                      condition or to arrange for an                        also provides for on-call physician
                                                   their corresponding penalties, at                       appropriate transfer to another medical               liability. We propose to revise the
                                                   § 1003.400(c). We also propose to                       facility where stabilizing treatment can              definition to clarify the circumstances
                                                   include the new assessments, which are                  be provided. EMTALA also requires                     when an on-call physician has EMTALA
                                                   available for two of the five new                       hospitals with specialized capabilities               liability. An on-call physician that fails
                                                   violations, at § 1003.410(c). The                       or facilities to accept appropriate                   or refuses to appear within a reasonable
                                                   proposed regulatory text closely mirrors                transfers of individuals from other                   time after such physician is requested to
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   that of the statute.                                    hospitals. Finally, EMTALA creates                    come to the hospital for examination,
                                                     The violations in this subpart are                    obligations for physicians responsible                treatment, or transfer purposes is subject
                                                   grouped according to the contracting                    for the examination, treatment, or                    to EMTALA liability. This includes on-
                                                   organizations they apply to. For                        transfer of an individual in a                        call physicians at the hospital where the
                                                   instance, § 1003.400(a) violations apply                participating hospital, including a                   individual presents initially and
                                                   to all contracting organizations. Section               physician on-call for the care of that                requests medical examination or
                                                   1003.400(b) violations apply to all                     individual. The regulations created                   treatment as well as on-call physicians
                                                   Medicare contracting organizations, i.e.,               pursuant to section 1867 of the Act are               at a hospital with specialized
                                                   those with contracts under sections                     found at 42 CFR 489.24.                               capabilities or facilities where the


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00009   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27088                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   individual may need to be transferred.                  condition that was an emergency                       picture, broadcast, telecast, or other
                                                   In addition, an on-call physician at the                medical condition. While we removed                   production’’ in a manner that could
                                                   hospital with specialized capabilities or               the language at current § 1003.106(a)(4),             reasonably be interpreted as conveying
                                                   facilities may violate EMTALA by                        we consider these circumstances to be                 the false impression that HHS, CMS,
                                                   refusing to accept an appropriate                       included in the general factors listed at             Medicare, or Medicaid has approved,
                                                   transfer.                                               proposed § 1003.140. Thus, while the                  endorsed, or authorized such use.
                                                      Under a plain reading of section                     proposed regulations do not state that                (Emphasis added.)
                                                   1867(d)(1)(B), the statute makes no                     OIG will consider ‘‘other instances                      We previously defined conduct that
                                                   distinction between physicians who are                  where the respondent failed to provide                constituted a violation for (1) direct or
                                                   on-call at the presenting hospital and                  appropriate medical screening                         printed mailing solicitations or
                                                   those who are on-call at a hospital with                examination, stabilization and treatment              advertisements and (2) broadcasts or
                                                   specialized capabilities or facilities. In              of individuals coming to a hospital’s                 telecasts. The proposed regulations are
                                                   fact, the statute refers to ‘‘participating             emergency department or to effect an                  updated also to reflect telephonic and
                                                   hospitals’’ and that term includes both.                appropriate transfer,’’ OIG will consider             Internet communications. Under a plain
                                                   Thus, we propose modifying the                          each of these failures when determining               reading of the Act, telemarketing
                                                   definition of ‘‘responsible physician’’ to              a penalty because they relate to a                    solicitations, email, and Web sites fall
                                                   more clearly reflect the statutory                      respondent’s prior history.                           within the statutory terms emphasized
                                                   scheme.                                                    EMTALA violations necessarily                      above. We believe these
                                                      We also propose revising the factors,                involve a case-by-case inquiry into the               communications are analogous to, and
                                                   currently set forth in §§ 1003.106(a)(4)                circumstances of the incident. Through                therefore propose imposing penalties
                                                   and (d), to improve clarity and better                  our enforcement experience, we have                   that would apply in the same manner
                                                   reflect OIG’s enforcement policy. First,                found that the current regulation’s                   as, those for direct mail and other
                                                   we propose clarifying that the factors                  mitigating factors do not assist in that              printed materials. The number of
                                                   listed in proposed § 1003.520 will be                   inquiry. For example, § 1003.106(d)(5)                individuals who received direct mail
                                                   used in making both CMP and exclusion                   states that it should be considered a                 and other printed materials can be more
                                                   determinations. Further, we propose                     mitigating circumstance if an individual              easily quantified than the number of
                                                   incorporating the general factors listed                presented a request for treatment, but                individuals who saw a television
                                                   in § 1003.140 and provide additional                    subsequently exhibited conduct that                   commercial or heard a radio
                                                   guidance on the EMTALA subpart at                       demonstrated a clear intent to leave the              commercial. Telemarketing calls,
                                                   proposed § 1003.520. Many of the                        respondent hospital voluntarily. In our               electronic messages, and Web page
                                                   factors in the current § 1003.106(a)(4)                 enforcement activities, however, we                   views can be similarly quantified. Thus,
                                                   and (d) duplicate those general factors.                have found situations when the                        we propose subjecting telemarketing,
                                                      Finally, we examined the factors                     individual may have demonstrated a                    email, and Web site violations to the
                                                   currently at § 1003.106(d) in light of our              clear intent to leave because the hospital            same $5,000 penalty as printed media.
                                                   lengthy enforcement experience. We                      failed to properly screen the individual              Each separate email address that
                                                   concluded that for several reasons, the                 within a reasonable amount of time. We                received the email, each telemarketing
                                                   mitigating factors should be removed.                   do not believe that in this circumstance,             call, and each Web page view would
                                                   Because of the overall statutory purpose,               the hospital’s penalty should be                      constitute a separate violation. We are
                                                   the fact-specific nature of EMTALA                      mitigated. Further, the factor at
                                                   violations, and the CMS certification                                                                         also soliciting comments on how to
                                                                                                           § 1003.106(d)(6)(A) in the current                    interpret section 1140 in the context of
                                                   process, the mitigating factors currently               regulation is not relevant to mitigation
                                                   found at § 1003.106(d) are not useful in                                                                      social media, such as Facebook and
                                                                                                           because developing and implementing a                 Twitter.
                                                   determining an appropriate penalty                      corrective action plan is a requirement
                                                   amount. First, Congress enacted                         of the CMS certification process                      Subpart G—Reserved
                                                   EMTALA to ensure that individuals                       following an investigation of an                      Subpart H—CMPs for Adverse Action
                                                   with emergency medical conditions are                   EMTALA violation.                                     Reporting and Disclosure Violations
                                                   not denied essential lifesaving services.                  We will continue to evaluate the
                                                   131 Cong. Rec. S13904 (daily ed. Oct.                   circumstances of each EMTALA referral                   Subpart H covers violations for failing
                                                   23, 1985) (statement of Sen. David                      to determine whether to exercise our                  to report payments in settlement of a
                                                   Durenberger); H.R. Rep. No 99–241, pt.                  discretion to pursue the violation and to             medical malpractice claim in
                                                   1, at 27 (1986), reprinted 1986                         determine the appropriate remedy.                     accordance with section 421 of Public
                                                   U.S.C.C.A.N. 579, 605. In light of this                                                                       Law 99–660 (42 U.S.C. 11131); failing to
                                                   statutory purpose, the circumstances                    Subpart F—CMPs for Section 1140                       report adverse actions pursuant to
                                                   surrounding the individual’s                            Violations                                            section 221 of Public Law 104–191 as
                                                   presentment to a hospital are important                   Subpart F applies to violations of                  set forth in section 1128E of the Act (42
                                                   to determinations about whether and to                  section 1140 of the Act (42 U.S.C.                    U.S.C. 1320a–7e); or improperly
                                                   what extent a CMP or an exclusion is                    1320b–10). The most significant                       disclosing, using, or permitting access to
                                                   appropriate. Thus, the proposed                         proposed change to this subpart is                    information reported in accordance with
                                                   regulations would revise the factors to                 clarifying the application of section                 part B of Title IV of Public Law 99–660
                                                   clarify that aggravating circumstances                  1140 of the Act to telemarketing,                     (42 U.S.C. 11137).
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   include: A request for proof of insurance               Internet, and electronic mail                           The language in proposed subpart H
                                                   or payment prior to screening or                        solicitations. Section 1140 of the Act                remains largely unchanged from the
                                                   treating; patient harm, unnecessary risk                prohibits the use of words, letters,                  current regulations at § 1003.102(b)(5)–
                                                   of patient harm, premature discharge, or                symbols, or emblems of the Department                 (6) and § 1003.103(c), (g). We propose to
                                                   a need for additional services or                       of Health and Human Services (HHS),                   remove the reference to the Healthcare
                                                   subsequent hospital admission that                      CMS, Medicare, or Medicaid in                         Integrity and Protection Data Bank
                                                   resulted, or could have resulted, from                  connection with ‘‘an advertisement,                   (HIPDB) in conformity with section
                                                   the incident; and whether the                           solicitation, circular, book, pamphlet, or            6403(a) of ACA, which removed the
                                                   individual presented with a medical                     other communication, or a play, motion                reference from section 1128E of the Act.


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00010   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                           27089

                                                   The relevant reporting requirements,                    participated in or knew or should have                language at this time in light of the
                                                   violation, and penalties would remain                   known of the violation; (2) the violation             general reorganization.
                                                   unchanged. Under section 1128E of the                   was a contributing factor, regardless of                OIG may impose a penalty against any
                                                   Act, providers must still report the same               proportionality, to an unauthorized                   person who it determines has violated
                                                   information. Once the HIPDB is phased                   individual’s access to or possession of a             section 1882(d)(1) of the Act (42 U.S.C.
                                                   out pursuant to section 6403(a) of ACA,                 select agent or toxin, an individual’s                1395ss(d)(1)) by knowingly and
                                                   the information will be collected and                   exposure to a select agent or toxin, or               willfully making or causing to be made
                                                   stored in the National Practitioner Data                the unauthorized removal of a select                  or inducing or seeking to induce the
                                                   Bank established pursuant to the Health                 agent or toxin from the person’s                      making of any false statement or
                                                   Care Quality Improvement Act of 1986                    physical location as identified on the                representation of material fact with
                                                   (42 U.S.C. 11101 et seq.). In the penalty               person’s certificate of registration; and             respect to the compliance of any policy
                                                   section, we propose to clarify that a                   (3) the person previously received a                  with Medicare supplemental policy
                                                   CMP may be imposed for each failure to                  statement of deficiency from HHS or the               standards and requirements or with
                                                   report required information or adverse                  Department of Agriculture for the same                respect to the use of the Secretary’s
                                                   action and for each improper disclosure,                or substantially similar conduct.                     emblem (described at section 1882(a)(1)
                                                   use, or permitting of access to                                                                               of the Act (42 U.S.C. 1395ss(a)(1))
                                                   information.                                            Subpart J—CMPs, Assessments, and                      indicating that a policy has received the
                                                                                                           Exclusions for Beneficiary Inducement                 Secretary’s certification. We propose to
                                                   Subpart I—CMPs for Select Agent                         Violations                                            add this violation at § 1003.1100(a).
                                                   Program Violations                                                                                              OIG may impose a penalty against any
                                                                                                              Subpart J covers two statutory
                                                      Subpart I contains the penalties for                 provisions concerning beneficiary                     person who it determines has violated
                                                   violations involving select agents,                     inducement violations. We propose                     section 1882(d)(2) of the Act (42 U.S.C.
                                                   currently found at § 1003.102(b)(16) and                moving the existing regulation,                       1395ss(d)(2)) by falsely assuming or
                                                   § 1003.103(l). The Public Health                        § 1003.102(b)(13), concerning the                     pretending to be acting, or
                                                   Security and Bioterrorism Preparedness                  beneficiary inducement provision in the               misrepresenting in any way that he is
                                                   and Response Act of 2002 (Bioterrorism                                                                        acting, under the authority of or in
                                                                                                           CMPL (section 1128A(a)(5) of the Act),
                                                   Act of 2002), Public 107–188, provides                                                                        association with, Medicare or any
                                                                                                           to this subpart. We also propose
                                                   for the regulation of certain biological                                                                      Federal agency, for the purpose of
                                                                                                           regulatory language for the authority at
                                                   agents and toxins (referred to below as                                                                       selling or attempting to sell insurance,
                                                                                                           section 1862(b)(3)(C) of the Act. The
                                                   ‘‘select agents and toxins’’) by HHS. The                                                                     or in such pretended character demands
                                                                                                           statutory authority is self-implementing
                                                   regulations created pursuant to the                                                                           or obtains money, paper, documents or
                                                                                                           and does not require a regulation. We
                                                   Bioterrorism Act of 2002 are found at 42                                                                      anything of value. We propose to add
                                                                                                           propose adding the regulatory language
                                                   CFR part 73. The regulations set forth                                                                        this violation at § 1003.1100(b).
                                                                                                           at this time in light of the general                    OIG may also impose a penalty
                                                   requirements for the possession and use
                                                                                                           reorganization. Under section                         against any person who it determines
                                                   in the United States, receipt from
                                                   outside the United States, and transfer                 1862(b)(3)(C) of the Act, a penalty of up             has violated section 1882(d)(4)(A) of the
                                                   within the United States of the select                  to $5,000 may be imposed against any                  Act (42 U.S.C. 1395ss(d)(4)(A)) by
                                                   agents and toxins. For each violation of                person who offers any financial or other              mailing or causing to be mailed any
                                                   42 CFR part 73, OIG is authorized to                    incentive for an individual entitled to               matter for advertising, soliciting,
                                                   impose CMPs of up to of $250,000, in                    benefits under Medicare not to enroll, or             offering for sale, or the delivery of
                                                   the case of an individual, and $500,000,                to terminate enrollment, under a group                Medicare supplemental insurance
                                                   in the case of an entity.                               health plan or a large group health plan              policy that has not been approved by
                                                      Proposed subpart I clarifies that the                that would, in the case of such                       the State commissioner or
                                                   CMP may be assessed for each                            enrollment, be a primary plan as                      superintendent of insurance. We
                                                   individual violation of 42 CFR Part 73.                 defined in section 1862(b)(2)(A). The                 propose to add this violation at
                                                   The Bioterrorism Act of 2002 states that                proposed regulatory text closely follows              § 1003.1100(c).
                                                   any person who violates ‘‘any                           the language of the statute.                            OIG may impose a penalty against any
                                                   provision’’ of the regulations is subject                  We propose to incorporate the general              person who it determines has violated
                                                   to the maximum statutory penalty. The                   factors listed in § 1003.140 for                      section 1882(d)(3)(A)(i) of the Act (42
                                                   plain meaning of ‘‘any provision’’                      determining amounts of penalties and                  U.S.C. 1395ss(d)(3)(A)) by issuing or
                                                   means that any single violation can                     assessments for violations in this                    selling to an individual entitled to
                                                   subject a person to the maximum                         subpart and to clarify that we will                   benefits under Part A or enrolled in Part
                                                   penalty. The provisions of 42 CFR 72.7                  consider the amount of remuneration,                  B (including an individual electing a
                                                   state that the penalties for a violation of             other financial incentives, or other                  Medicare Part C plan) (1) a health
                                                   part 73 should be calculated ‘‘per                      incentive. This provision is in the                   insurance policy with the knowledge
                                                   event,’’ also indicating that the                       current regulations at                                that the policy duplicates Medicare or
                                                   maximum penalty may be assessed on a                    § 1003.106(a)(1)(vii).                                Medicaid health benefits to which the
                                                   per-violation basis. Thus, we propose                                                                         individual is otherwise entitled; (2) a
                                                                                                           Subpart K—CMPs for the Sale of
                                                   amending the regulation to add ‘‘each                                                                         Medicare supplemental policy to an
                                                                                                           Medicare Supplemental Policies
                                                   individual’’ before ‘‘violation’’ to clarify                                                                  individual who has not elected a
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   our longstanding interpretation of this                   Subpart K covers violations relating to             Medicare Part C plan where the person
                                                   section to mean that each violation                     the sale of Medicare supplemental                     knows that the individual is entitled to
                                                   subjects a person to a CMP up to the                    policies. The statutory authority is self-            benefits under another Medicare
                                                   maximum amount.                                         implementing and does not require a                   supplemental policy; (3) a Medicare
                                                      In addition, proposed subpart I                      regulation. Omnibus Budget                            supplemental policy to an individual
                                                   includes several aggravating                            Reconciliation Act of 1990, Public Law                who has elected a Medicare Part C plan
                                                   circumstances to guide our penalty                      101–508, section 4354(c), 104 Stat. 3327              where the person knows that the policy
                                                   determinations. Aggravating factors                     (1990); 42 U.S.C. 1395ss(d). However,                 duplicates health benefits to which the
                                                   include: (1) The Responsible Official                   we propose adding the regulatory                      individual is otherwise entitled under


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00011   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27090                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   the Medicare Part C plan or under                       reorganization. The proposed regulation               led to significant ASP payment limit
                                                   another Medicare supplemental policy;                   text closely mirrors the language of the              fluctuations for highly utilized Health
                                                   and (4) a health insurance policy (other                statute.                                              Care Common Procedure Coding System
                                                   than a Medicare supplemental policy)                       Section 1927(a) of the Act and section             codes (HCPCS). 75 FR at 40153; 75 FR
                                                   with the knowledge that the policy                      340B of the Public Health Service Act                 at 73462. To minimize ASP payment
                                                   duplicates health benefits to which the                 implement a drug-pricing program in                   limit fluctuations because of missing
                                                   individual is otherwise entitled, other                 which manufacturers that sell covered                 data, CMS proposed that, in situations
                                                   than benefits to which the individual is                outpatient drugs to covered entities                  when missing ASP data would result in
                                                   entitled under a requirement of State or                must agree to charge a price that will                a 10 percent or greater change in the
                                                   Federal law. We proposed to add this                    not exceed an amount determined under                 calculation of the HCPCS payment limit
                                                   violation at § 1003.1100(d).                            a statutory formula. Under section                    for multiple source drugs, CMS would
                                                      OIG may also impose a penalty                        1927(a) of the Act, manufacturers must                carry over previously reported
                                                   against any person who violated section                 provide certain statutorily mandated                  manufacturer ASP data, as subject to
                                                   1882(d)(3)(A)(vi)(II) of the Act (42                    discounts to covered entities. Section                certain conditions. CMS noted that its
                                                   U.S.C. 1395ss(d)(3)(A)(vi)(II)) by issuing              1927(b)(3)(A) requires manufacturers                  carryover proposal should not be
                                                   or selling a health insurance policy                    with Medicaid Drug Rebate Agreements                  interpreted by manufacturers to mean
                                                   (other than a policy described in section               to provide specified drug-pricing and                 that CMS and OIG will refrain from
                                                   1882(d)(3)(A)(vi)(III) of the Act) to an                product information to the Secretary,                 collecting penalties for ASP reporting
                                                   individual entitled to benefits under                   including, but not limited to, average                violations. As stated in the CMS
                                                   Part A or enrolled under Part B who is                  manufacturer price (AMP), average sales               proposal, submission of late reports and
                                                   applying for a health insurance policy                  price (ASP), wholesale acquisition cost,              failure to submit reports will not be
                                                   without furnishing a disclosure                         and best price. Labelers are required to              tolerated.
                                                   statement (described at section                         certify each product and pricing data                    As set forth in the Special Advisory
                                                   1882(d)(3)(A)(vii) of the Act). We                      submission made to CMS.                               Bulletin dated September 28, 2010, OIG
                                                   propose to add this violation at                           The fact that many manufacturers                   intends to impose CMPs on those
                                                   § 1003.1100(e).                                         submit late or incomplete product and                 manufacturers that submit or certify late
                                                      OIG may also impose a penalty                        pricing data adversely affects the                    or incomplete product and pricing
                                                   against any person who it determines                    efficient administration of Federal                   information. Under section
                                                   has violated section 1882(d)(3)(B)(iv) of               health care programs. See Drug                        1927(b)(3)(C) of the Act, OIG may
                                                   the Act (42 U.S.C. 1395ss(d)(3)(B)(iv))                 Manufacturers’ Noncompliance With                     impose a penalty of not more than
                                                   by issuing or selling a Medicare                        Average Manufacturer Price Reporting                  $10,000 per day for each day that a
                                                   supplemental policy to any individual                   Requirements (OEI–03–09–00060)                        manufacturer with an agreement under
                                                   eligible for benefits under Part A or                   (September 2010); Average Sales Prices:               section 1927 of the Act fails to provide
                                                   enrolled under Part B without obtaining                 Manufacturer Reporting and CMS                        the information required by section
                                                   the written statement from the                          Oversight (OEI–03–08–00480) (February                 1927(b)(3)(A) of the Act.
                                                   individual or written acknowledgement                   2010); Deficiencies in the Oversight of                  Manufacturers submit the product
                                                   from the seller required by section                     the 340B Drug Pricing Program (OEI–                   and pricing information required by
                                                   1882(d)(3)(B) of the Act (42 U.S.C.                     05–02–00072) (October 2005). As                       section 1927 using the National Drug
                                                   1395ss(d)(3)(B)). We propose to add this                described in our Special Advisory                     Code (NDC) product identifier.
                                                   violation at § 1003.1100(f).                            Bulletin dated September 28, 2010, OIG                Manufacturers submit ASP data to CMS
                                                      For violations of section 1882(d)(1),                inspections have established that                     at the 11-digit NDC level, including the
                                                   (d)(2), and (d)(4)(A) of the Act, OIG may               manufacturers continue to provide                     number of units of the 11-digit NDC
                                                   impose a penalty of not more than                       untimely or incomplete pricing data.                  sold. Manufacturers submit AMP data to
                                                   $5,000 for each violation. We propose to                The September 2010 report found that                  CMS through the Web-based Drug Data
                                                   add this penalty at § 1003.1110(a). For                 more than three-quarters of                           Reporting system at the 9-digit NDC
                                                   violations of section 1882(d)(3)(A) and                 manufacturers failed to comply with                   level.
                                                   (B) of the Act, OIG may impose a                        quarterly AMP reporting requirements                     OIG proposes calculating CMPs under
                                                   penalty of not more than $25,000 for                    in at least one quarter in calendar year              section 1927(b)(3)(C) of the Act at the 9-
                                                   each violation by a seller that is also the             2008.                                                 digit NDC level for both AMP and ASP
                                                   issuer of the policy and a penalty of not                  In response to the September 2010                  data. For example, a manufacturer that
                                                   more than $15,000 for each violation by                 report’s findings, CMS stated that it                 fails to provide the information required
                                                   a seller that is not the issuer of the                  would begin referring manufacturers                   by section 1927(b)(3)(A) of the Act for
                                                   policy. We propose to add these                         that submit incomplete quarterly and                  five separate 9-digit level NDCs may be
                                                   penalties at § 1003.1110(b) and (c). In                 monthly data to OIG for CMP                           penalized for each item, in an aggregate
                                                   determining the amount of the penalty                   consideration. CMS stated that it would               amount of not more than $50,000 per
                                                   in accordance with proposed subpart K,                  also refer manufacturers that report late             day for each day that the information is
                                                   OIG would consider the factors listed in                or incomplete ASP data. As discussed in               not provided. If, after 2 days, the
                                                   the proposed § 1003.140.                                two 2010 Federal Register notices CMS                 manufacturer in this example submitted
                                                                                                           proposed to establish a process for                   information for two of the missing
                                                   Subpart L—CMPs for Drug Price                           addressing manufacturers’ failure to                  drugs, the manufacturer would be
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   Reporting                                               report manufacturer ASP data in a                     subject to an aggregate penalty of not
                                                      Subpart L contains the CMPs for drug-                timely fashion, noting that while delays              more than $30,000 per day for each
                                                   price reporting found in section                        in reporting ASP data have been                       additional day that information was not
                                                   1927(b)(3)(B)–(C) of the Act (42 U.S.C.                 uncommon, they create risks. 75 FR                    provided for the remaining three items.
                                                   1396r–8(b)(3)(B)–(C)). Although the                     40139, 40153 (July 13, 2010); 75 FR                   OIG believes that this interpretation is
                                                   statutory authority is self-implementing                73169, 73462 (November 29, 2010).                     supported by the statutory text, which
                                                   and does not require a regulation, we                   CMS further stated that it had recently               refers to NDCs, and by the reporting
                                                   propose adding the regulatory language                  encountered situations when delays in                 systems employed by CMS, under
                                                   at this time in light of the general                    manufacturer ASP reporting could have                 which manufacturers are required to


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00012   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                             27091

                                                   report AMP and ASP product and                          propose several clarifying changes to                 example, we interpret ‘‘extraordinary
                                                   pricing data using NDCs.                                procedures in this subpart. We propose                circumstances’’ to mean that those
                                                      Section 1927(b)(3)(B) provides for                   amending the methods permitted for                    arguments or issues were beyond the
                                                   verification surveys of AMPs and                        service of a notice of intent to impose               authority of the administrative process.
                                                   establishes that a penalty of not more                  a penalty, assessment, or exclusion
                                                                                                                                                                 Other Changes in Part 1003
                                                   than $100,000 may be imposed against                    under part 1003. The current § 1003.109
                                                   a wholesaler, direct seller, or                         requires service by certified mail, return               OIG has the authority to impose CMPs
                                                   manufacturers that directly distribute                  receipt requested. Section 1128A(c)(1)                against endorsed sponsors under the
                                                   their covered outpatient drugs for                      of the Act, however, permits service by               Medicare Prescription Drug Discount
                                                   refusing a request for information by, or               any method authorized by Rule 4 of the                Card Program that knowingly commit
                                                   for knowingly providing false                           Federal Rules of Civil Procedure (FRCP).              certain violations. The discount card
                                                   information to, the Secretary about                     This rule has been amended to                         program has been defunct since January
                                                   charges or prices in connection with                    authorize various service methods                     1, 2006, when Medicare Part D went
                                                   such a survey.                                          depending on whether the recipient is a               into effect. We propose to remove this
                                                      Pursuant to section 1927(b)(3)(C) of                 domestic or foreign individual or                     CMP from the regulations as the statute
                                                   the Act, OIG may impose a penalty of                    corporation. Therefore, we are                        of limitations has expired for any
                                                   not more than $100,000 against any                      amending our regulation at                            conduct that might implicate this CMP.
                                                   manufacturer with an agreement under                    § 1003.1500(a) and 1003.1510 to permit                B. Appeals of Exclusions, Civil
                                                   section 1927 of the Act that knowingly                  service under FRCP Rule 4. By                         Monetary Penalties, and Assessments
                                                   provides false information for each item                referencing the rule, the regulation
                                                   of false information.                                   would reflect any future amendments to                  We propose changes to the OIG
                                                      OIG will consider the general factors                Rule 4 automatically.                                 regulations at 42 CFR part 1005 to
                                                   listed in § 1003.140 when determining                      We also propose technical changes to               correct an internal inconsistency in
                                                   the amount of the penalties.                            the judicial review provision currently               § 1005.4(c). The regulation currently
                                                                                                           at § 1003.127 and redesignated as                     states at § 1005.4(c)(5)–(6) that an ALJ is
                                                   Subpart M—CMPs for Notifying a                          § 1003.1540 to better conform to the                  not authorized to (1) review the exercise
                                                   Skilled Nursing Facility, Nursing                       statutory scheme that a person must                   of discretion by OIG to exclude an
                                                   Facility, Home Health Agency, or                        exhaust his or her administrative                     individual or entity under section
                                                   Community Care Setting of a Survey                      remedies before filing a claim in Federal             1128(b) of the Act, (2) determine the
                                                      In subpart M, we propose to add                      court. Exhaustion of administrative                   scope or effect of the exclusion, or (3)
                                                   regulations providing for CMPs for                      remedies is a well-settled legal                      set a period of exclusion at zero when
                                                   notifying a skilled nursing facility,                   principle, particularly concerning                    the ALJ finds that the individual or
                                                   nursing facility, home health agency, or                section 405(g) of the Act (42 U.S.C.                  entity committed an act described in
                                                   a community care setting of the date or                 205(g)). Consistent with existing law,                section 1128(b) of the Act. Currently,
                                                   time of a survey. The statutory authority               the proposed regulations clarify that a               § 1005.4(c)(7) states that an ALJ is not
                                                   for these CMPs is self-implementing and                 person may not bring a claim in Federal               authorized to review the exercise of
                                                   does not require a regulation. Act,                     court without first raising that claim at             discretion by OIG to impose a CMP, an
                                                   sections 1819(g)(2)(A), 1919(g)(2)(A),                  every applicable stage within the                     assessment, or an exclusion under part
                                                   1891(c)(1), 1929(i)(3)(A); 42 U.S.C.                    administrative process, including any                 1003. The second and third limits on
                                                   1395i–3(g)(2)(A), 1396r(g)(2)(A),                       administrative appeal process. In the                 ALJ authority with respect to exclusions
                                                   1395bbb(c)(1), 1396t(i)(3)(A). However,                 context of part 1003, that administrative             under section 1128(b) of the Act should
                                                   we propose adding the regulatory                        process consists of timely requesting a               also apply to exclusions imposed under
                                                   language at this time in light of the                   hearing before an Administrative Law                  part 1003. To correct this inconsistency,
                                                   general reorganization. The proposed                    Judge (ALJ) pursuant to 42 CFR 1005.2                 we propose to clarify that when
                                                   regulation text closely mirrors the                     and, if the respondent loses at the ALJ               reviewing exclusions imposed pursuant
                                                   language of the statute.                                level, timely filing an appeal of the ALJ             to part 1003, an ALJ is not authorized
                                                      Skilled nursing facilities (SNF),                    decision to the Departmental Appeals                  to (1) review OIG’s exercise of discretion
                                                   nursing facilities (NF), home health                    Board. Only after the Departmental                    to exclude an individual or entity, (2)
                                                   agencies, and community care settings                   Appeals Board makes a final decision                  determine the scope or effect of the
                                                   are subject to State compliance surveys                 under 42 CFR 1005.21(j) is the                        exclusion, or (3) set a period of
                                                   without any prior notice. Sections                      respondent eligible to file an action in              exclusion at zero if the ALJ finds that
                                                   1819(g)(2)(A), 1919(g)(2)(A), 1891(c)(1),               Federal court.                                        the individual or entity committed an
                                                   and 1929(i)(3)(A) of the Act provide for                   We also propose a technical change to              act described in part 1003. We believe
                                                   imposing a penalty of not more than                     the regulatory language to clarify the                that this requirement is consistent with
                                                   $2,000 against any individual who                       statutory limit on issues eligible for                congressional intent in enacting the
                                                   notifies, or causes to be notified, a SNF,              judicial review. Section 1128A(e) of the              statutes providing authority for part
                                                   NF, home health agency, or community                    Act provides that ‘‘[n]o objection that               1003 that explicitly provide for
                                                   care setting of the time or date on which               has not been urged before the Secretary               exclusion as an appropriate remedy for
                                                   a survey is scheduled to be conducted.                  shall be considered by the court, unless              the commission of any of the acts
                                                      OIG will consider the general factors                the failure or neglect to urge such                   specified in those statutes. Thus, in
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   listed in § 1003.140 when determining                   objection shall be excused because of                 every case when OIG has exercised its
                                                   the amount of the penalties to be                       extraordinary circumstances.’’ We                     discretion to impose an exclusion and
                                                   imposed under proposed subpart M.                       interpret this to mean that a person is               when the ALJ concurs that a violation
                                                                                                           precluded from making arguments or                    did occur, exclusion is appropriate.
                                                   Subpart O—Procedures for the                            raising issues in Federal court that were
                                                   Imposition of CMPs, Assessments, and                    not first raised in the administrative                III. Regulatory Impact Statement
                                                   Exclusions                                              process, unless the court finds that                     We have examined the impact of this
                                                     Subpart O contains the procedural                     extraordinary circumstances prevented                 proposed rule as required by Executive
                                                   provisions that apply to part 1003. We                  raising those arguments or issues. For                Order 12866, Executive Order 13563,


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00013   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27092                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   the Regulatory Flexibility Act (RFA) of                 under Titles XVIII or XIX or section B                42 CFR Part 1005
                                                   1980, the Unfunded Mandates Reform                      of Title XI of the Act may have a                       Administrative practice and
                                                   Act of 1995, and Executive Order 13132.                 significant impact on the operations of               procedure, Fraud, Investigations,
                                                                                                           a substantial number of small rural                   Penalties.
                                                   Executive Order Nos. 12866 and 13563
                                                                                                           hospitals. This analysis must conform to                For the reasons set forth in the
                                                      Executive Orders 12866 and 13563                     section 604 of the RFA. Only one
                                                   direct agencies to assess all costs and                                                                       preamble, the Office of the Inspector
                                                                                                           proposed change has been made under                   General, Department of Health and
                                                   benefits of available regulatory                        the relevant title, the amendments to the
                                                   alternatives and, if regulations are                                                                          Human Services, proposes to amend 42
                                                                                                           Medicare Contracting Organization Rule                CFR chapter V, subchapter B as follows:
                                                   necessary, to select regulatory                         at proposed § 1003.400, et seq. This rule
                                                   approaches that maximize net benefits                   applies only to Medicare contracting                  PART 1003—CIVIL MONEY
                                                   (including potential economic,                          organizations, not to rural hospitals, and            PENALTIES, ASSESSMENTS AND
                                                   environmental, public health and safety                 would have no effect on rural hospitals.              EXCLUSIONS
                                                   effects; distributive impacts; and                      Thus, an analysis under section 1102(b)
                                                   equity). Executive Order 13563 is                       is not required for this rulemaking.                  ■ 1. The authority citation for part 1003
                                                   supplemental to and reaffirms the                                                                             continues to read as follows:
                                                   principles, structures, and definitions                 Unfunded Mandates Reform Act
                                                                                                                                                                   Authority: 42 U.S.C. 262a, 1302, 1320–7,
                                                   governing regulatory review as                            Section 202 of the Unfunded                         1320a–7a, 1320b–10, 1395u(j), 1395u(k),
                                                   established in Executive Order 12866. A                 Mandates Reform Act of 1995, Public                   1395cc(j), 1395w–141(i)(3), 1395dd(d)(1),
                                                   regulatory impact analysis must be                      Law 104–4, also requires that agencies                1395mm, 1395nn(g), 1395ss(d), 1396b(m),
                                                   prepared for major rules with                           assess anticipated costs and benefits                 11131(c), and 11137(b)(2).
                                                   economically significant effects, i.e.,                 before issuing any rule that may result               ■ 2. Designate §§ 1003.100 through
                                                   $100 million or more in any given year.                 in expenditures in any one year by                    1003.135 as Subpart A, and add a
                                                   This is not a major rule as defined at 5                State, local, or tribal governments, in the           heading for subpart A to read as follows:
                                                   U.S.C. 804(2); it is not economically                   aggregate, or by the private sector, of
                                                   significant because it does not reach that              $110 million. As indicated above, these               Subpart A—General Provisions
                                                   economic threshold.                                     proposed revisions comport with                       ■ 3. Revise § 1003.100 to read as
                                                      This proposed rule is designed to                    statutory amendments and clarify                      follows:
                                                   implement new statutory provisions,                     existing law. We believe that as a result,
                                                   including new CMP authorities. This                     there would be no significant costs                   § 1003.100   Basis and purpose.
                                                   proposed rule is also designed to clarify               associated with these proposed                          (a) Basis. This part implements
                                                   the intent of existing statutory                        revisions that would impose any                       sections 1128(c), 1128A, 1140,
                                                   requirements and to reorganize CMP                      mandates on State, local, or tribal                   1819(b)(3)(B), 1819(g)(2)(A),
                                                   regulation sections for ease of use. The                governments or the private sector that                1857(g)(2)(A), 1860D–12(b)(3)(E),
                                                   vast majority of providers and Federal                  would result in an expenditure of $110                1860D–31(i)(3), 1862(b)(3)(C),
                                                   health care programs would be                           million or more (adjusted for inflation)              1867(d)(1), 1876(i)(6), 1877(g), 1882(d),
                                                   minimally impacted, if at all, by these                 in any given year and that a full analysis            1891(c)(1); 1903(m)(5), 1919(b)(3)(B),
                                                   proposed revisions.                                     under the Unfunded Mandates Reform                    1919(g)(2)(A), 1927(b)(3)(B),
                                                      Accordingly, we believe that the                     Act is not necessary.                                 1927(b)(3)(C), and 1929(i)(3) of the
                                                   likely aggregate economic effect of these                                                                     Social Security Act; sections 421(c) and
                                                   regulations would be significantly less                 Executive Order 13132                                 427(b)(2) of Pub. L. 99–660; and section
                                                   than $100 million.                                         Executive Order 13132, Federalism,                 201(i) of Pub. L. 107–188 (42 U.S.C.
                                                   Regulatory Flexibility Act                              establishes certain requirements that an              1320a–7(c), 1320a–7a, 1320b–10, 1395i–
                                                                                                           agency must meet when it promulgates                  3(b)(3)(B), 1395i–3(g)(2)(A), 1395w–
                                                      The RFA and the Small Business                       a rule that imposes substantial direct                27(g)(2)(A), 1395w–112(b)(3)(E), 1395w–
                                                   Regulatory Enforcement and Fairness                     requirements or costs on State and local              141(i)(3), 1395y(b)(3)(B), 1395dd(d)(1),
                                                   Act of 1996, which amended the RFA,                     governments, preempts State law, or                   1395mm(i)(6), 1395nn(g), 1395ss(d),
                                                   require agencies to analyze options for                 otherwise has Federalism implications.                1395bbb(c)(1), 1396b(m)(5),
                                                   regulatory relief of small businesses. For              In reviewing this rule under the                      1396r(b)(3)(B), 1396r(g)(2)(A), 1396r–
                                                   purposes of the RFA, small entities                     threshold criteria of Executive Order                 7(b)(3)(B), 1396r–7(b)(3)(C), 1396t(i)(3),
                                                   include small businesses, nonprofit                     13132, we have determined that this                   11131(c), 11137(b)(2), and 262a(i)).
                                                   organizations, and government agencies.                 proposed rule would not significantly                   (b) Purpose. This part—
                                                   Most providers are considered small                     affect the rights, roles, and                            (1) Provides for the imposition of civil
                                                   entities by having revenues of $5                       responsibilities of State or local                    money penalties and, as applicable,
                                                   million to $25 million or less in any one               governments.                                          assessments and exclusions against
                                                   year. For purposes of the RFA, most                                                                           persons who have committed an act or
                                                   physicians and suppliers are considered                 IV. Paperwork Reduction Act                           omission that violates one or more
                                                   small entities.                                           These proposed changes to Parts 1003                provisions of this part and
                                                      The aggregate effect of the changes to               and 1005 impose no new reporting                         (2) Sets forth the appeal rights of
                                                   the CMP provisions would be minimal.                    requirements or collections of                        persons subject to a penalty, assessment,
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                      In summary, we have concluded that                                                                         and exclusion.
                                                                                                           information. Therefore, a Paperwork
                                                   this proposed rule should not have a                                                                          ■ 4. Remove §§ 1003.102 through
                                                                                                           Reduction Act review is not required.
                                                   significant impact on the operations of                                                                       1003.110, 1003.114, 1003.126 through
                                                   a substantial number of small providers                 List of Subjects                                      1003.129, and 1003.132 through
                                                   and that a regulatory flexibility analysis                                                                    1003.135.
                                                                                                           42 CFR Part 1003
                                                   is not required for this rulemaking.                                                                          ■ 5. Redesignate § 1003.101 as
                                                      In addition, section 1102(b) of the Act               Fraud, Grant programs—health,                        § 1003.110.
                                                   (42 U.S.C. 1302) requires us to prepare                 Health facilities, Health professions,                ■ 6. Amend newly designated
                                                   a regulatory impact analysis if a rule                  Medicaid, Reporting and recordkeeping.                § 1003.110 by:


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00014   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                               Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                              27093

                                                   ■  a. Removing the definitions ‘‘Act’’,                   State health care program                             authority for the request, the person’s
                                                   ‘‘Adverse effect’’, ‘‘ALJ’’, ‘‘CMS’’,                     reimbursement method, such as a                       rights in responding to the request, the
                                                   ‘‘Department’’, ‘‘Exclusion’’, ‘‘Inspector                prospective payment system or managed                 definition of ‘‘reasonable request’’ and
                                                   General’’, ‘‘Item or service’’,                           care system; or that are, in the case of              ‘‘failure to grant timely access’’ under
                                                   ‘‘Medicaid’’, ‘‘Medicare’’, ‘‘Secretary’’,                a claim based on costs, required to be                part 1003, the deadline by which the
                                                   ‘‘State’’, ‘‘State health care program’’,                 entered in a cost report, books of                    OIG requests access, and the amount of
                                                   and ‘‘Transitional assistance’’.                          account, or other documents supporting                the civil money penalty or assessment
                                                   ■ b. Revising the definitions of                          the claim (whether or not actually                    that could be imposed and the effective
                                                   ‘‘Assessment’’, ‘‘Claim’’, ‘‘Contracting                  entered).                                             date, length, and scope and effect of the
                                                   organization’’, ‘‘Enrollee’’, ‘‘Medical                      Knowingly means that a person, with                exclusion that would be imposed for
                                                   malpractice claim or action’’,                            respect to an act, has actual knowledge               failure to comply with the request, and
                                                   ‘‘Participating hospital’’, ‘‘Penalty’’,                  of the act, acts in deliberate ignorance              the earliest date that a request for
                                                   ‘‘Physician incentive plan’’,                             of the act, or acts in reckless disregard             reinstatement would be considered.
                                                   ‘‘Responsible physician’’, ‘‘Select agents                of the act, and that no proof of specific             *      *     *     *     *
                                                   and toxins’’, and ‘‘Should know, or                       intent to defraud is required.                           Responsible Official means the
                                                   should have known’’, ‘‘Social Services                       Material means having a natural                    individual designated pursuant to 42
                                                   Block Grant Program’’, and ‘‘Timely                       tendency to influence, or be capable of               CFR part 73 to serve as the Responsible
                                                   basis’’.                                                  influencing, the payment or receipt of                Official for the person holding a
                                                   ■ c. Adding the definitions of ‘‘Items                    money or property.                                    certificate of registration to possess, use,
                                                   and services or items or services’’,                      *     *      *     *     *                            or transfer select agents or toxins.
                                                   ‘‘Knowingly’’, ‘‘Material’’, ‘‘Non-                          Medical malpractice claim or action                   Responsible physician means a
                                                   separately-billable item or service’’,                    means a written complaint or claim                    physician who is responsible for the
                                                   ‘‘Overpayment’’, ‘‘Reasonable request’’,                  demanding payment based on a                          examination, treatment, or transfer of an
                                                   ‘‘Responsible Official’’, ‘‘Select Agent                  physician’s, dentist’s, or other health               individual who comes to a participating
                                                   Program’’, ‘‘Separately billable item or                  care practitioner’s provision of, or                  hospital’s emergency department
                                                   service’’ in alphabetical order.                          failure to provide, health care services              requesting examination or treatment,
                                                   ■ d. Amending the definition                              and includes the filing of a cause of                 including any physician who is on-call
                                                   ‘‘Remuneration’’ by removing ‘‘as set                     action based on the law of tort brought               for the care of such individual and fails
                                                   forth in § 1003.102(b)(13) of this part,’’                in any State or Federal court or other                or refuses to appear within a reasonable
                                                   and by adding after ‘‘Remuneration,’’                     adjudicative body.                                    time at such hospital to provide services
                                                   ‘‘for purposes of § 1003.1000(a) of this                  *     *      *     *     *                            relating to the examination, treatment,
                                                   part,’’.                                                     Non-separately-billable item or                    or transfer of such individual.
                                                      The revisions and additions read as                    service means an item or service that is              Responsible physician also includes a
                                                   follows:                                                  a component of, or otherwise                          physician who is responsible for the
                                                                                                             contributes to the provision of, an item              examination or treatment of individuals
                                                   § 1003.110       Definitions.
                                                                                                             or a service, but is not itself a separately          at hospitals with specialized capabilities
                                                   *     *     *     *     *                                 billable item or service.                             or facilities, as provided under section
                                                      Assessment means the amounts                              Overpayment means any funds that a                 1867(g) of the Act, including any
                                                   described in this part and includes the                   person receives or retains under Title                physician who is on-call for the care of
                                                   plural of that term.                                      XVIII or XIX to which the person, after               such individuals and refuses to accept
                                                      Claim means an application for                         applicable reconciliation, is not entitled            an appropriate transfer or fails or refuses
                                                   payment for an item or service under a                    under such title.                                     to appear within a reasonable time to
                                                   Federal health care program.                                 Participating hospital means either a              provide services related to the
                                                   *     *     *     *     *                                 hospital or a critical access hospital as             examination or treatment of such
                                                      Contracting organization means a                       defined in section 1861(mm)(1) of the                 individuals.
                                                   public or private entity, including a                     Act that has entered into a Medicare                  *      *     *     *     *
                                                   health maintenance organization,                          provider agreement under section 1866                    Select Agent Program means activities
                                                   Medicare Advantage Plan, Prescription                     of the Act.                                           relating to the possession, use, and
                                                   Drug Plan sponsor, or other organization                     Penalty means the amount described                 transfer of select agents and toxins as
                                                   that has contracted with the Department                   in this part and includes the plural of               regulated by section 351A of the Public
                                                   or a State to furnish services to                         that term.                                            Health Service Act and 42 CFR part 73.
                                                   Medicare or Medicaid beneficiaries                        *     *      *     *     *                               Select agents and toxins is defined
                                                   pursuant to sections 1857, 1860D–12,                         Physician incentive plan means any                 consistent with the definition of ‘‘select
                                                   1876(b), or 1903(m) of the Act.                           compensation arrangement between a                    agent and/or toxin’’ and ‘‘overlap select
                                                      Enrollee means an individual who is                    contracting organization and a                        agent and/or toxin’’ as set forth in 42
                                                   eligible for Medicare or Medicaid and                     physician or physician group that may                 CFR part 73.
                                                   who enters into an agreement to receive                   directly or indirectly have the effect of                Separately billable item or service
                                                   services from a contracting organization.                 reducing or limiting services provided                means an item or service for which an
                                                   *     *     *     *     *                                 with respect to enrollees in the                      identifiable payment may be made
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                      Items and services or items or services                organization.                                         under a Federal health care program,
                                                   includes without limitation, any item,                    *     *      *     *     *                            e.g., an itemized claim or a payment
                                                   device, drug, biological, supply, or                         Reasonable request, with respect to                under a prospective payment system or
                                                   service (including management or                          § 1003.200(b)(10), means a written                    other reimbursement methodology.
                                                   administrative services), including, but                  request, signed by a designated                          Should know, or should have known,
                                                   not limited to, those that are listed in an               representative of the OIG and made by                 means that a person, with respect to
                                                   itemized claim for program payment or                     a properly identified agent of the OIG                information, either acts in deliberate
                                                   a request for payment; for which                          during reasonable business hours. The                 ignorance of the truth or falsity of the
                                                   payment is included in any Federal or                     request will include a statement of the               information or acts in reckless disregard


                                              VerDate Mar<15>2010     18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00015   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27094                      Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   of the truth or falsity of the information.              liability if the respondent ‘‘knew or                 considers the ability of the person to
                                                   For purposes of this definition, no proof                should have known’’ a claim was false                 pay the proposed civil money penalty or
                                                   of specific intent to defraud is required.               or fraudulent, it will be an aggravating              assessment. The person shall provide, in
                                                     Social Services Block Grant Program                    circumstance if the respondent had                    a time and manner requested by the
                                                   means the program authorized under                       actual knowledge the claim was false or               OIG, sufficient financial documentation,
                                                   Title XX of the Act.                                     fraudulent). It should be a mitigating                including audited financial statements,
                                                   *     *     *     *      *                               circumstance if the person took                       tax returns, and financial disclosure
                                                     Timely basis means, in accordance                      appropriate and timely corrective action              statements, deemed necessary by the
                                                   with § 1003.300(a) of this part, the 60-                 in response to the violation. For                     OIG to determine the person’s ability to
                                                   day period from the time the prohibited                  purposes of this part, corrective action              pay.
                                                   amounts are collected by the individual                  must include disclosing the violation to                 (2) If the person requests a hearing in
                                                   or the entity.                                           the OIG through the Self-Disclosure                   accordance with 42 CFR 1005.2, the
                                                                                                            Protocol and fully cooperating with the               only financial documentation subject to
                                                   *     *     *     *      *
                                                   ■ 7. Add § 1003.120, 1003.130,
                                                                                                            OIG’s review and resolution of such                   review is that which the person
                                                                                                            disclosure;                                           provided to the OIG during the
                                                   1003.140, 1003.150, and 1003.160 to
                                                                                                               (3) The history of prior offenses.                 administrative process, unless the ALJ
                                                   subpart A to read as follows:
                                                                                                            Aggravating circumstances include, if at              finds that extraordinary circumstances
                                                   § 1003.120 Liability for penalties and                   any time prior to the violation, the                  prevented the person from providing the
                                                   assessments.                                             person—or in the case of an entity, the               financial documentation to the OIG in
                                                      (a) In any case when it is determined                 entity itself; any individual who had a               the time and manner requested by the
                                                   that more than one person was                            direct or indirect ownership or control               OIG prior to the hearing request.
                                                   responsible for a violation described in                 interest (as defined in section 1124(a)(3)               (c) In determining the amount of any
                                                   this part, each such person may be held                  of the Act) in a sanctioned entity at the             penalty and assessment to be imposed
                                                   liable for the penalty prescribed by this                time the violation occurred and who                   under this part the following
                                                   part.                                                    knew, or should have known, of the                    circumstances are also to be
                                                      (b) In any case when it is determined                 violation; or any individual who was an               considered—
                                                   that more than one person was                            officer or a managing employee (as                       (1) If there are substantial or several
                                                   responsible for a violation described in                 defined in section 1126(b) of the Act) of             mitigating circumstances, the aggregate
                                                   this part, an assessment may be                          such an entity at the time the violation              amount of the penalty and assessment
                                                   imposed, when authorized, against any                    occurred—was held liable for criminal,                should be set at an amount sufficiently
                                                   one such person or jointly and severally                 civil, or administrative sanctions in                 below the maximum permitted by this
                                                   against two or more such persons, but                    connection with a program covered by
                                                                                                                                                                  part to reflect that fact.
                                                   the aggregate amount of the assessments                  this part or in connection with the
                                                                                                                                                                     (2) If there are substantial or several
                                                   collected may not exceed the amount                      delivery of a health care item or service;
                                                                                                               (4) Other wrongful conduct.                        aggravating circumstances, the aggregate
                                                   that could be assessed if only one                                                                             amount of the penalty and assessment
                                                   person was responsible.                                  Aggravating circumstances include
                                                                                                            proof that the person—or in the case of               should be set at an amount sufficiently
                                                      (c) Under this part, a principal is                                                                         close to or at the maximum permitted by
                                                   liable for penalties and assessments for                 an entity, the entity itself; any
                                                                                                            individual who had a direct or indirect               this part to reflect that fact.
                                                   the actions of his or her agent acting                                                                            (3) Unless there are extraordinary
                                                                                                            ownership or control interest (as
                                                   within the scope of his or her agency.                                                                         mitigating circumstances, the aggregate
                                                                                                            defined in section 1124(a)(3) of the Act)
                                                   This provision does not limit the                                                                              amount of the penalty and assessment
                                                                                                            in a sanctioned entity at the time the
                                                   underlying liability of the agent.                                                                             should not be less than double the
                                                                                                            violation occurred and who knew, or
                                                   § 1003.130       Assessments.                            should have known, of the violation; or               approximate amount of damages and
                                                                                                            any individual who was an officer or a                costs (as defined by paragraph (e)(2) of
                                                     The assessment in this part is in lieu                                                                       this section) sustained by the United
                                                   of damages sustained by the Department                   managing employee (as defined in
                                                                                                            section 1126(b) of the Act) of such an                States, or any State, as a result of the
                                                   or a State agency because of the                                                                               violation.
                                                   violation.                                               entity at the time the violation
                                                                                                            occurred—engaged in wrongful                             (4) The presence of any single
                                                   § 1003.140 Determinations regarding the                  conduct, other than the specific conduct              aggravating circumstance may justify
                                                   amount of penalties and assessments and                  upon which liability is based, relating to            imposing a penalty and assessment at or
                                                   the period of exclusion.                                 a government program or in connection                 close to the maximum even when one
                                                      (a) Except as otherwise provided in                   with the delivery of a health care item               or more mitigating factors are present.
                                                   this part, in determining the amount of                  or service. The statute of limitations                   (d) In determining whether to exclude
                                                   any penalty or assessment or the period                  governing civil money penalty                         a person under this part, where there are
                                                   of exclusion in accordance with this                     proceedings will not apply to proof of                aggravating circumstances, the person
                                                   part, the OIG will consider the following                other wrongful conduct as an                          should be excluded.
                                                   factors—                                                 aggravating circumstance; and                            (e)(1) The standards set forth in this
                                                      (1) The nature and circumstances of                      (5) Such other matters as justice may              section are binding, except to the extent
                                                   the violation;                                           require. Other circumstances of an                    that their application would result in
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                      (2) The degree of culpability of the                  aggravating or mitigating nature should               imposition of an amount that would
                                                   person against whom a civil money                        be considered if, in the interests of                 exceed limits imposed by the United
                                                   penalty, assessment, or exclusion is                     justice, they require either a reduction              States Constitution.
                                                   proposed. It should be considered an                     or an increase in the penalty,                           (2) The amount imposed will not be
                                                   aggravating circumstance if the                          assessment, or period of exclusion to                 less than the approximate amount
                                                   respondent had a greater level of                        achieve the purposes of this part.                    required to fully compensate the United
                                                   knowledge than the minimum level of                         (b)(1) After determining the amount of             States, or any State, for its damages and
                                                   knowledge required to establish liability                any penalty and assessment in                         costs, tangible and intangible, including,
                                                   (e.g., for a provision that establishes                  accordance with this part, the OIG                    but not limited to, the costs attributable


                                              VerDate Mar<15>2010    18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00016   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                               Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                            27095

                                                   to the investigation, prosecution, and                    Subpart C—CMPs, Assessments, and                      (including cheating on an examination
                                                   administrative review of the case.                        Exclusions for Anti-Kickback and Physician            required for licensing); or
                                                     (3) Nothing in this part limits the                     Self-Referral Violations                                 (iii) Represented to the patient at the
                                                   authority of the Department or the OIG                    1003.300 Basis for civil money penalties,             time the service was furnished that the
                                                   to settle any issue or case as provided                       assessments, and exclusions.                      physician was certified in a medical
                                                                                                             1003.310 Amount of penalties and                      specialty board when he or she was not
                                                   by § 1003.1530 or to compromise any
                                                                                                                 assessments.
                                                   penalty and assessment as provided by                     1003.320 Determinations regarding the
                                                                                                                                                                   so certified; or
                                                   § 1003.1550.                                                  amount of penalties and assessments and              (5) An item or service that a person
                                                     (4) Penalties, assessments, and                             the period of exclusion.                          knew, or should have known was not
                                                   exclusions imposed under this part are                                                                          medically necessary, and which is part
                                                                                                             Subpart D—CMPs and Assessments for
                                                   in addition to any other penalties,                                                                             of a pattern of such claims.
                                                                                                             Contracting Organization Misconduct
                                                   assessments, or other sanctions                                                                                    (b) The OIG may impose a penalty; an
                                                                                                             1003.400 Basis for civil money penalties              exclusion; and, where authorized, an
                                                   prescribed by law.                                            and assessments.
                                                                                                             1003.410 Amount of penalties and
                                                                                                                                                                   assessment against any person whom it
                                                   § 1003.150       Delegation of authority.                                                                       determines—
                                                                                                                 assessments.
                                                     The OIG is delegated authority from                     1003.420 Determinations regarding the                    (1) Has knowingly presented, or
                                                   the Secretary to impose civil money                           amount of penalties and assessments.              caused to be presented, a request for
                                                   penalties and, as applicable,                                                                                   payment in violation of the terms of—
                                                                                                             Subpart E—CMPs and Exclusions for
                                                   assessments and exclusions against any                    EMTALA Violations                                        (i) An agreement to accept payments
                                                   person who has violated one or more                                                                             on the basis of an assignment under
                                                                                                             1003.500 Basis for civil money penalties
                                                   provisions of this part. The delegation of                    and exclusions.
                                                                                                                                                                   section 1842(b)(3)(B)(ii) of the Act;
                                                   authority includes all powers to impose                   1003.510 Amount of penalties.                            (ii) An agreement with a State agency
                                                   civil monetary penalties, assessments,                    1003.520 Determinations regarding the                 or other requirement of a State Medicaid
                                                   and exclusion under section 1128A of                          amount of penalties and the period of             plan not to charge a person for an item
                                                   the Act.                                                      exclusion.                                        or service in excess of the amount
                                                                                                             Subpart F—CMPs for Section 1140                       permitted to be charged;
                                                   § 1003.160       Waiver of exclusion.
                                                                                                             Violations                                               (iii) An agreement to be a
                                                      (a) The OIG will consider a request                                                                          participating physician or supplier
                                                                                                             1003.600 Basis for civil money penalties.
                                                   from the administrator of a Federal                                                                             under section 1842(h)(1) of the Act; or
                                                                                                             1003.610 Amount of penalties.
                                                   health care program for a waiver of an                    1003.620 Determinations regarding the                    (iv) An agreement in accordance with
                                                   exclusion imposed under this part as set                      amount of penalties.                              section 1866(a)(1)(G) of the Act not to
                                                   forth in paragraph (b) of this section.                                                                         charge any person for inpatient hospital
                                                   The request must be in writing and from                   Subpart B—CMPs, Assessments, and                      services for which payment had been
                                                   an individual directly responsible for                    Exclusions for False or Fraudulent                    denied or reduced under section
                                                   administering the Federal health care                     Claims and Other Similar Misconduct                   1886(f)(2) of the Act;
                                                   program.                                                                                                           (2) Has knowingly given, or caused to
                                                                                                             § 1003.200 Basis for civil money penalties,
                                                      (b) If the OIG subsequently obtains                                                                          be given, to any person, in the case of
                                                                                                             assessments, and exclusions.
                                                   information that the basis for a waiver                                                                         inpatient hospital services subject to
                                                   no longer exists, the waiver will cease                     (a) The OIG may impose a penalty,
                                                                                                                                                                   section 1886 of the Act, information that
                                                   and the person will be excluded from                      assessment, and an exclusion against
                                                                                                                                                                   he or she knew, or should have known,
                                                   the Federal health care programs for the                  any person who it determines has
                                                                                                                                                                   was false or misleading and that could
                                                   remainder of the exclusion period,                        knowingly presented, or caused to be
                                                                                                                                                                   reasonably have been expected to
                                                   measured from the time the exclusion                      presented, a claim that was for—
                                                                                                               (1) An item or service that the person              influence the decision when to
                                                   would have been imposed if the waiver                                                                           discharge such person or another person
                                                                                                             knew, or should have known, was not
                                                   had not been granted.                                                                                           from the hospital;
                                                                                                             provided as claimed, including a claim
                                                      (c) The OIG will notify the                            that was part of a pattern or practice of                (3) Is an individual and who is
                                                   administrator of the Federal health care                  claims based on codes that the person                 excluded from participating in a Federal
                                                   program whether his or her request for                    knew, or should have known, would                     health care program in accordance with
                                                   a waiver has been granted or denied.                      result in greater payment to the person               sections 1128 or 1128A of the Act, and
                                                      (d) If a waiver is granted, it applies                 than the code applicable to the item or               who—
                                                   only to the program(s) for which waiver                   service actually provided;                               (i) Knows, or should know, of the
                                                   is requested.                                               (2) An item or service for which the                action constituting the basis for the
                                                      (e) The decision to grant, deny, or                    person knew, or should have known,                    exclusion and retains a direct or indirect
                                                   rescind a waiver is not subject to                        that the claim was false or fraudulent;               ownership or control interest of 5
                                                   administrative or judicial review.                          (3) An item or service furnished                    percent or more in an entity that
                                                   ■ 8. Add subparts B through F to read                     during a period in which the person was               participates in a Federal health care
                                                   as follows:                                               excluded from participation in the                    program or
                                                                                                             Federal health care program to which                     (ii) Is an officer or a managing
                                                   Subpart B—CMPs, Assessments, and                                                                                employee (as defined in section 1126(b)
                                                                                                             the claim was made;
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   Exclusions for False or Fraudulent Claims                                                                       of the Act) of such entity;
                                                   and Other Similar Misconduct                                (4) A physician’s services (or an item
                                                                                                             or service) for which the person knew,                   (4) Arranges or contracts (by
                                                   Sec.                                                                                                            employment or otherwise) with an
                                                   1003.200 Basis for civil money penalties,
                                                                                                             or should have known, that the
                                                                                                             individual who furnished (or supervised               individual or entity that the person
                                                        assessments, and exclusions.
                                                   1003.210 Amount of penalties and                          the furnishing of) the service—                       knows, or should know, is excluded
                                                        assessments.                                           (i) Was not licensed as a physician;                from participation in Federal health care
                                                   1003.220 Determinations regarding the                       (ii) Was licensed as a physician, but               programs for the provision of items or
                                                        amount of penalties and assessments and              such license had been obtained through                services for which payment may be
                                                        the period of exclusion.                             a misrepresentation of material fact                  made under such a program;


                                              VerDate Mar<15>2010     18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00017   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27096                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                      (5) Has knowingly and willfully                      requires home health services when the                   (i) $5,000; or
                                                   presented, or caused to be presented, a                 physician knows that the beneficiary                     (ii) Three times the amount of
                                                   bill or request for payment for items and               does not meet the eligibility                         Medicare payments for home health
                                                   services furnished to a hospital patient                requirements in sections 1814(a)(2)(C)                services that are made with regard to the
                                                   for which payment may be made under                     or 1835(a)(2)(A) of the Act.                          false certification of eligibility by a
                                                   a Federal health care program if that bill                 (d) The OIG may impose a penalty                   physician, as prohibited by section
                                                   or request is inconsistent with an                      against any person who it determines                  1814(a)(2)(C) or 1835(a)(2)(A) of the Act.
                                                   arrangement under section 1866(a)(1)(H)                 knowingly certifies, or causes another                   (11) For each false certification in
                                                   of the Act or violates the requirements                 individual to certify, a material and                 violation of § 1003.200(d), the OIG may
                                                   for such an arrangement;                                false statement in a resident assessment              impose a penalty of not more than—
                                                      (6) Orders or prescribes a medical or                pursuant to sections 1819(b)(3)(B) and                   (i) $1,000 with respect to an
                                                   other item or service during a period in                1919(b)(3)(B).                                        individual who willfully and knowingly
                                                   which the person was excluded from a                                                                          falsely certifies a material and false
                                                   Federal health care program, in the case                § 1003.210 Amount of penalties and                    statement in a resident assessment; and
                                                                                                           assessments.                                             (ii) $5,000 with respect to an
                                                   when the person knows, or should
                                                   know, that a claim for such medical or                    (a) Penalties. (1) Except as provided in            individual who willfully and knowingly
                                                   other item or service will be made under                this section, the OIG may impose a                    causes another individual to falsely
                                                   such a program;                                         penalty of not more than $10,000 for                  certify a material and false statement in
                                                      (7) Knowingly makes, or causes to be                 each individual violation that is subject             a resident assessment.
                                                   made, any false statement, omission, or                 to a determination under this subpart.                   (b) Assessments. (1) Except for
                                                   misrepresentation of a material fact in                    (2) The OIG may impose a penalty of                violations of § 1003.200(b)(4), (5), and
                                                   any application, bid, or contract to                    not more than $15,000 for each person                 (7), and § 1003.200(c) and (d), the OIG
                                                   participate or enroll as a provider of                  with respect to whom a determination                  may impose an assessment for each
                                                   services or a supplier under a Federal                  was made that false or misleading                     individual violation of § 1003.200, of
                                                   health care program, including                          information was given under                           not more than 3 times the amount for
                                                   contracting organizations and entities                  § 1003.200(b)(2).                                     each item or service wrongfully
                                                                                                              (3) The OIG may impose a penalty of                claimed.
                                                   that apply to participate as providers of
                                                                                                           not more than $10,000 per day for each                   (2) For violations of § 1003.200(b)(4),
                                                   services or suppliers in such contracting
                                                                                                           day that the prohibited relationship                  the OIG may impose an assessment of
                                                   organizations;
                                                                                                           described in § 1003.200(b)(3) occurs.                 not more than 3 times—
                                                      (8) Knows of an overpayment and
                                                                                                              (4) For each individual violation of                  (i) The amount claimed for each
                                                   does not report and return the                          § 1003.200(b)(4), the OIG may impose a
                                                   overpayment in accordance with section                                                                        separately billable item or service
                                                                                                           penalty of not more than $10,000—                     provided, furnished, ordered, or
                                                   1128J(d) of the Act;                                       (i) For each separately billable item or
                                                      (9) Knowingly makes, uses, or causes                                                                       prescribed by an excluded individual or
                                                                                                           service provided, furnished, ordered, or              entity or
                                                   to be made or used, a false record or                   prescribed by an excluded individual or
                                                   statement material to a false or                                                                                 (ii) The total costs (including salary,
                                                                                                           entity, or                                            benefits, taxes, and other money or
                                                   fraudulent claim for payment for items                     (ii) For each day the person employs,              items of value) related to the excluded
                                                   and services furnished under a Federal                  contracts with, or otherwise arranges for             individual or entity incurred by the
                                                   health care program; or                                 an excluded individual or entity to
                                                      (10) Fails to grant timely access to                                                                       person that employs, contracts with, or
                                                                                                           provide, furnish, order, or prescribe a               otherwise arranges for an excluded
                                                   records, documents, and other material                  non-separately-billable item or service.
                                                   or data in any medium (including                                                                              individual or entity to provide, furnish,
                                                                                                              (5) The OIG may impose a penalty of                order, or prescribe a non-separately-
                                                   electronically stored information and                   not more than $2,000 for each bill or
                                                   any tangible thing), upon reasonable                                                                          billable item or service.
                                                                                                           request for payment for items and                        (3) For violations of § 1003.200(b)(7),
                                                   request, to the OIG, for the purpose of                 services furnished to a hospital patient              the OIG may impose an assessment of
                                                   audits, investigations, evaluations, or                 in violation of § 1003.200(b)(5).                     not more than 3 times the total amount
                                                   other OIG statutory functions. Such                        (6) The OIG may impose a penalty of                claimed for each item or service for
                                                   failure to grant timely access means:                   not more than $50,000 for each false                  which payment was made based upon
                                                      (i) Except when the OIG reasonably                   statement, omission, or                               the application containing the false
                                                   believes that the requested material is                 misrepresentation of a material fact in               statement, omission, or
                                                   about to be altered or destroyed, the                   violation of § 1003.200(b)(7).                        misrepresentation of material fact.
                                                   failure to produce or make available for                   (7) The OIG may impose a penalty of
                                                   inspection and copying the requested                    not more than $50,000 for each false                  § 1003.220 Determinations regarding the
                                                   material upon reasonable request or to                  record or statement in violation of                   amount of penalties and assessments and
                                                   provide a compelling reason why they                    § 1003.200(b)(9).                                     the period of exclusion.
                                                   cannot be produced, by the deadline                        (8) The OIG may impose a penalty of                  In considering the factors listed in
                                                   specified in the OIG’s written request,                 not more than $10,000 per day for each                § 1003.140—
                                                   and                                                     overpayment that is not reported and                    (a) It should be considered a
                                                      (ii) When the OIG has reason to                      returned in accordance with section                   mitigating circumstance if all the items
                                                   believe that the requested material is                  1128J(d) of the Act in violation of                   or services or violations included in the
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   about to be altered or destroyed, the                   § 1003.200(b)(8).                                     action brought under this part were of
                                                   failure to provide access to the                           (9) The OIG may impose a penalty of                the same type and occurred within a
                                                   requested material at the time the                      not more than $15,000 for each day of                 short period of time, there were few
                                                   request is made.                                        failure to grant timely access in                     such items or services or violations, and
                                                      (c) The OIG may impose a penalty                     violation of § 1003.200(b)(10).                       the total amount claimed or requested
                                                   against any person who it determines, in                   (10) For each false certification in               for such items or services was less than
                                                   accordance with this part, is a physician               violation of § 1003.200(c), the OIG may               $5,000.
                                                   and who executes a document falsely by                  impose a penalty of not more than the                   (b) Aggravating circumstances
                                                   certifying that a Medicare beneficiary                  greater of—                                           include—


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00018   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                             27097

                                                      (1) The violations were of several                   § 1003.310 Amount of penalties and                    Subpart D—CMPs and Assessments
                                                   types or occurred over a lengthy period                 assessments.                                          for Contracting Organization
                                                   of time;                                                  (a) Penalties. The OIG may impose a                 Misconduct
                                                      (2) There were many such items or                    penalty of not more than—
                                                                                                                                                                 § 1003.400 Basis for civil money penalties
                                                   services or violations (or the nature and                 (1) $15,000 for each claim or bill for
                                                                                                                                                                 and assessments.
                                                   circumstances indicate a pattern of                     a designated health service, as defined
                                                                                                           in § 411.351 of this title, that is subject              (a) All contracting organizations. The
                                                   claims or requests for payment for such
                                                                                                           to a determination under § 1003.300(a)                OIG may impose a penalty against any
                                                   items or services or a pattern of
                                                                                                           or (c);                                               contracting organization that—
                                                   violations);                                                                                                     (1) Fails substantially to provide an
                                                      (3) The amount claimed or requested                    (2) $100,000 for each arrangement or
                                                                                                           scheme that is subject to a                           enrollee with medically necessary items
                                                   for such items or services, or the amount                                                                     and services that are required (under the
                                                   of the overpayment was $15,000 or                       determination under § 1003.300(b); and
                                                                                                                                                                 Act, applicable regulations, or contract)
                                                   more;                                                     (3) $50,000 for each offer, payment,
                                                                                                                                                                 to be provided to such enrollee and the
                                                                                                           solicitation, or receipt of remuneration
                                                      (4) The violation resulted, or could                                                                       failure adversely affects (or has the
                                                                                                           that is subject to a determination under
                                                   have resulted, in patient harm,                                                                               substantial likelihood of adversely
                                                                                                           § 1003.300(d).
                                                   premature discharge, or a need for                                                                            affecting) the enrollee;
                                                                                                             (b) Assessments. The OIG may impose                    (2) Imposes a premium on an enrollee
                                                   additional services or subsequent                       an assessment of not more than 3
                                                   hospital admission; or                                                                                        in excess of the amounts permitted
                                                                                                           times—                                                under the Act;
                                                      (5) The amount or type of financial,                    (1) The amount claimed for each                       (3) Engages in any practice that would
                                                   ownership, or control interest or the                   designated health service that is subject             reasonably be expected to have the
                                                   degree of responsibility a person has in                to a determination under § 1003.300(a),               effect of denying or discouraging
                                                   an entity was substantial with respect to               (b), or (c).                                          enrollment by beneficiaries whose
                                                   an action brought under                                    (2) The total remuneration offered,                medical condition or history indicates a
                                                   § 1003.200(b)(3).                                       paid, solicited, or received that is                  need for substantial future medical
                                                                                                           subject to a determination under                      services, except as permitted by the Act;
                                                   Subpart C—CMPs, Assessments, and                        § 1003.300(d). Calculation of the total
                                                   Exclusions for Anti-Kickback and                                                                                 (4) Misrepresents or falsifies
                                                                                                           remuneration for purposes of an                       information furnished to a person;
                                                   Physician Self-Referral Violations                      assessment shall be without regard to                    (5) Misrepresents or falsifies
                                                   § 1003.300 Basis for civil money penalties,             whether a portion of such remuneration                information furnished to the Secretary
                                                   assessments, and exclusions.                            was offered, paid, solicited, or received             or a State, as applicable;
                                                                                                           for a lawful purpose.                                    (6) Fails to comply with the
                                                      The OIG may impose a penalty, an
                                                                                                                                                                 requirements of 42 CFR 417.479(d)
                                                   assessment, and an exclusion against                    § 1003.320 Determinations regarding the
                                                                                                           amount of penalties and assessments and               through (i) for Medicare and 42 CFR
                                                   any person who it determines in
                                                                                                           the period of exclusion.                              417.479(d) through (g) and (i) for
                                                   accordance with this part—
                                                                                                                                                                 Medicaid regarding certain prohibited
                                                      (a) Has not refunded on a timely basis,                 In considering the factors listed in
                                                                                                                                                                 incentive payments to physicians; or
                                                   as defined in § 1003.110, amounts                       § 1003.140:                                              (7) Fails to comply with applicable
                                                   collected as a result of billing an                        (a) It should be considered a                      requirements of the Act regarding
                                                   individual, third party payer, or other                 mitigating circumstance if all the items,             prompt payment of claims.
                                                   entity for a designated health service                  services, or violations included in the                  (b) All Medicare contracting
                                                   furnished pursuant to a prohibited                      action brought under this part were of                organizations. The OIG may impose a
                                                   referral as described in § 411.353 of this              the same type and occurred within a                   penalty against any contracting
                                                   title.                                                  short period of time; there were few                  organization with a contract under
                                                                                                           such items, services, or violations; and              section 1857, 1860D–12, or 1876 of the
                                                      (b) Is a physician or other person that              the total amount claimed or requested
                                                   enters into any arrangement or scheme                                                                         Act that—
                                                                                                           for such items or services was less than                 (1) Acts to expel or to refuse to
                                                   (such as a cross-referral arrangement)                  $5,000.
                                                   that the physician or other person                                                                            reenroll a beneficiary in violation of the
                                                                                                              (b) Aggravating circumstances                      Act or
                                                   knows, or should know, has a principal                  include—
                                                   purpose of ensuring referrals by the                                                                             (2) Employs or contracts with a
                                                                                                              (1) The violations were of several                 person excluded, under section 1128 or
                                                   physician to a particular person that, if
                                                                                                           types or occurred over a lengthy period               1128A of the Act, from participation in
                                                   the physician directly made referrals to
                                                                                                           of time;                                              Medicare for the provision of health
                                                   such person, would be in violation of
                                                                                                              (2) There were many such items,                    care, utilization review, medical social
                                                   the prohibitions of § 411.353 of this
                                                                                                           services, or violations (or the nature and            work, or administrative services, or
                                                   title.
                                                                                                           circumstances indicate a pattern of                   employs or contracts with any entity for
                                                      (c) Has knowingly presented, or                      claims or requests for payment for such               the provision of such services (directly
                                                   caused to be presented, a claim that is                 items or services or a pattern of                     or indirectly) through an excluded
                                                   for a payment that such person knows,                   violations);                                          person.
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   or should know, may not be made under                      (3) The amount claimed or requested                   (c) Medicare Advantage and Part D
                                                   § 411.353 of this title;                                for such items or services or the amount              contracting organizations. The OIG may
                                                      (d) Has violated section 1128B(b) of                 of the remuneration was $15,000 or                    impose a penalty, and for
                                                   the Act by unlawfully offering, paying,                 more; or                                              § 1003.400(c)(4) or (c)(5), an assessment,
                                                   soliciting, or receiving remuneration to                   (4) The violation resulted, or could               against a contracting organization with
                                                   induce or in return for the referral of                 have resulted, in harm to the patient, a              a contract under section 1857 or 1860D–
                                                   business paid for, in whole or in part,                 premature discharge, or a need for                    12 of the Act that:
                                                   by Medicare, Medicaid, or other Federal                 additional services or subsequent                        (1) Enrolls an individual without the
                                                   health care programs.                                   hospital admission.                                   individual’s (or his or her designee’s)


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00019   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27098                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   prior consent, except as provided under                 (Medicare Advantage or Part D) of not                    (c) The OIG may, in lieu of or in
                                                   subparagraph (C) or (D) of section                      more than the amount claimed in                       addition to any penalty available under
                                                   1860D–1(b)(1) of the Act;                               violation of § 1003.400(a)(4) or (a)(5) on            this subpart, exclude any responsible
                                                     (2) Transfers an enrollee from one                    the basis of the misrepresentation or                 physician that commits a gross and
                                                   plan to another without the individual’s                falsified information involved.                       flagrant, or repeated, violation of this
                                                   (or his or her designee’s) prior consent;                  (d) The OIG may impose a penalty or,               subpart from participation in Federal
                                                     (3) Transfers an enrollee solely for the              when applicable, an assessment, against               health care programs.
                                                   purpose of earning a commission;                        a contracting organization with a                        (d) For purposes of this subpart, a
                                                     (4) Fails to comply with marketing                    contract under section 1857 or 1860D–                 ‘‘gross and flagrant violation’’ is a
                                                   restrictions described in subsection (h)                12 of the Act (Medicare Advantage or                  violation that presents an imminent
                                                   or (j) of section 1851 of the Act or                    Part D) if any of its employees, agents,              danger to the health, safety, or well-
                                                   applicable implementing regulations or                  or contracting providers or suppliers                 being of the individual who seeks
                                                   guidance; or                                            engages in any of the conduct described               examination and treatment or places
                                                     (5) Employs or contracts with any                     in § 1003.400(a) through (d).                         that individual unnecessarily in a high-
                                                   person who engages in the conduct                                                                             risk situation.
                                                   described in paragraphs (a) through (c)                 § 1003.420 Determinations regarding the
                                                                                                           amount of penalties and assessments.                  § 1003.510   Amount of penalties.
                                                   of this section.
                                                     (d) Medicare Advantage contracting                      In considering the factors listed in                  The OIG may impose—
                                                   organizations. The OIG may impose a                     § 1003.140, aggravating circumstances                   (a) Against each participating
                                                   penalty against a contracting                           include—                                              hospital, a penalty of not more than
                                                   organization with a contract under                        (a) Such violations were of several                 $50,000 for each individual violation,
                                                   section 1857 of the Act that fails to                   types or occurred over a lengthy period               except that if the participating hospital
                                                   comply with the requirements of section                 of time;                                              has fewer than 100 State-licensed,
                                                   1852(j)(3) or 1852(k)(2)(A)(ii) of the Act.               (b) There were many such violations                 Medicare-certified beds on the date the
                                                     (e) Medicaid contracting                              (or the nature and circumstances                      penalty is imposed, the penalty will not
                                                   organizations. The OIG may impose a                     indicate a pattern of incidents);                     exceed $25,000 for each violation, and
                                                                                                             (c) The amount of money,                              (b) Against each responsible
                                                   penalty against any contracting
                                                                                                           remuneration, damages, or tainted                     physician, a penalty of not more than
                                                   organization with a contract under
                                                                                                           claims involved in the violation was                  $50,000 for each individual violation.
                                                   section 1903(m) of the Act that acts to
                                                                                                           $15,000 or more; or
                                                   discriminate among individuals in                                                                             § 1003.520 Determinations regarding the
                                                                                                             (d) Patient harm, premature discharge,
                                                   violation of the Act, including                                                                               amount of penalties and the period of
                                                                                                           or a need for additional services or
                                                   expulsion or refusal to reenroll an                                                                           exclusion.
                                                                                                           subsequent hospital admission resulted,
                                                   individual or engaging in any practice                                                                           In considering the factors listed in
                                                                                                           or could have resulted, from the
                                                   that would reasonably be expected to                                                                          § 1003.140, aggravating circumstances
                                                                                                           incident; and
                                                   have the effect of denying or                             (e) The contracting organization                    include:
                                                   discouraging enrollment by eligible                     knowingly or routinely engaged in any                    (a) Requesting proof of insurance,
                                                   individuals with the contracting                        prohibited practice that acted as an                  prior authorization, or a monetary
                                                   organization whose medical condition                    inducement to reduce or limit medically               payment prior to appropriately
                                                   or history indicates a need for                         necessary services provided with                      screening or initiating stabilizing
                                                   substantial future medical services.                    respect to a specific enrollee in the                 treatment for an emergency medical
                                                                                                           organization.                                         condition, or requesting a monetary
                                                   § 1003.410 Amount of penalties and
                                                   assessments.                                                                                                  payment prior to stabilizing an
                                                                                                           Subpart E—CMPs and Exclusions for                     emergency medical condition;
                                                     (a) Penalties. (1) The OIG may impose                                                                          (b) Patient harm or unnecessary risk
                                                                                                           EMTALA Violations
                                                   a penalty of up to $25,000 for each                                                                           of patient harm, premature discharge, or
                                                   individual violation under § 1001.400,                  § 1003.500 Basis for civil money penalties            a need for additional services or
                                                   except as provided in this section.                     and exclusions.                                       subsequent hospital admission resulted,
                                                      (2) The OIG may impose a penalty of                     (a) The OIG may impose a penalty                   or could have resulted, from the
                                                   up to $100,000 for each individual                      against any participating hospital with               incident; or
                                                   violation under § 1003.400(a)(3), (a)(5),               an emergency department or specialized                   (c) The individual presented to the
                                                   or (e).                                                 capabilities or facilities for each                   hospital with a request for examination
                                                      (b) Additional penalties. In addition                negligent violation of section 1867 of                or treatment of a medical condition that
                                                   to the penalties described in paragraph                 the Act or § 489.24 of this title.                    was an emergency medical condition, as
                                                   (a) of this section, the OIG may                           (b) The OIG may impose a penalty                   defined by § 489.24(b) of this title.
                                                   impose—                                                 against any responsible physician for
                                                      (1) An additional penalty equal to                   each—                                                 Subpart F—CMPs for Section 1140
                                                   double the amount of excess premium                        (1) Negligent violation of section 1867            Violations
                                                   charged by the contracting organization                 of the Act;
                                                   for each individual violation of                           (2) Certification signed under section             § 1003.600   Basis for civil money penalties.
                                                   § 1003.400(a)(2). The excess premium                    1867(c)(l)(A) of the Act if the physician               (a) The OIG may impose a penalty
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   amount will be deducted from the                        knew, or should have known, that the                  against any person who it determines in
                                                   penalty and returned to the enrollee.                   benefits of transfer to another facility              accordance with this part has used the
                                                      (2) An additional $15,000 penalty for                did not outweigh the risks of such a                  words, letters, symbols, or emblems as
                                                   each individual expelled or not enrolled                transfer; or                                          defined in paragraph (b) of this section
                                                   in violation of § 1003.400(a)(3) or (e).                   (3) Misrepresentation made                         in such a manner that such person
                                                      (c) Assessments. The OIG may impose                  concerning an individual’s condition or               knew, or should have known, would
                                                   an assessment against a contracting                     other information, including a hospital’s             convey, or in a manner that reasonably
                                                   organization with a contract under                      obligations under section 1867 of the                 could be interpreted or construed as
                                                   section 1857 or 1860D–12 of the Act                     Act.                                                  conveying, the false impression that an


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00020   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                              Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                               27099

                                                   advertisement, a solicitation, or other                  commercial or solicitation related to a               Subpart J—CMPs, Assessments, and
                                                   item was authorized, approved, or                        determination under § 1003.600(a);                    Exclusions for Beneficiary Inducement
                                                   endorsed by the Department or CMS or                        (4) In the case of electronic mail                 Violations
                                                   that such person or organization has                     (email) messages, each separate email                 1003.1000 Basis for civil money penalties,
                                                   some connection with or authorization                    address that received the email message                   assessments, and exclusions.
                                                   from the Department or CMS.                              that contains one or more words, letters,             1003.1010 Amount of penalties and
                                                      (b) Civil money penalties may be                                                                                assessments.
                                                                                                            symbols, or emblems related to a                      1003.1020 Determinations regarding the
                                                   imposed, regardless of the use of a                      determination under § 1003.600(a);                        amount of penalties and assessments and
                                                   disclaimer of affiliation with the United                   (5) In the case of a Web page (such as                 the period of exclusion.
                                                   States Government, the Department, or                    an Internet site) accessed by a computer
                                                   its programs, for misuse of—                                                                                   Subpart K—CMPs for the Sale of Medicare
                                                                                                            or other electronic means, each instance              Supplemental Policies.
                                                      (1) The words ‘‘Department of Health                  in which an individual views such Web
                                                   and Human Services,’’ ‘‘Health and                       page that contains one or more words,                 1003.1100 Basis for civil money penalties.
                                                   Human Services,’’ ‘‘Centers for                          letters, symbols, or emblems related to
                                                                                                                                                                  1003.1110 Amount of penalties.
                                                   Medicare & Medicaid Services,’’                                                                                1003.1120 Determinations regarding the
                                                                                                            a determination under § 1003.600(a);                      amount of penalties.
                                                   ‘‘Medicare,’’ or ‘‘Medicaid’’ or any other               and
                                                   combination or variations of such                                                                              Subpart L—CMPs for Drug Price Reporting
                                                                                                               (6) In the case of a telemarketing
                                                   words;                                                                                                         1003.1200 Basis for civil money penalties.
                                                      (2) The letters ‘‘DHHS,’’ ‘‘HHS,’’ or                 solicitation, each individual unsolicited
                                                                                                            telephone call regarding the delivery of              1003.1210 Amount of penalties.
                                                   ‘‘CMS,’’ or any other combination or                                                                           1003.1220 Determinations regarding the
                                                   variation of such letters; or                            an item or service under Medicare or
                                                                                                                                                                      amount of penalties.
                                                      (3) A symbol or an emblem of the                      Medicaid related to a determination
                                                   Department or CMS (including the                         under § 1003.600(a).                                  Subpart M—CMPs for Notifying a Skilled
                                                   design of, or a reasonable facsimile of                                                                        Nursing Facility, Nursing Facility, Home
                                                                                                            § 1003.620 Determinations regarding the               Health Agency, or Community Care Setting
                                                   the design of, the Medicare card, the                    amount of penalties.                                  of a Survey
                                                   check used for payment of benefits
                                                   under Title II, or envelopes or other                       (a) In considering the factors listed in           1003.1300 Basis for civil money penalties.
                                                   stationery used by the Department or                     § 1003.140, the following circumstances               1003.1310 Amount of penalties.
                                                                                                            are to be considered—                                 1003.1320 Determinations regarding the
                                                   CMS) or any other combination or                                                                                    amount of penalties.
                                                   variation of such symbols or emblems.                       (1) The nature and objective of the
                                                      (c) Civil money penalties will not be                 advertisement, solicitation, or other
                                                                                                                                                                  Subpart H—CMPs for Adverse Action
                                                   imposed against any agency or                            communication and the degree to which
                                                                                                                                                                  Reporting and Disclosure Violations
                                                   instrumentality of a State, or political                 it had the capacity to deceive members
                                                   subdivision of the State, that uses any                  of the public;                                        § 1003.800   Basis for civil money penalties.
                                                   symbol or emblem or any words or                            (2) The frequency and scope of the                   The OIG may impose a penalty
                                                   letters that specifically identify that                  violation and whether a specific                      against any person (including an
                                                   agency or instrumentality of the State or                segment of the population was targeted;               insurance company) who it
                                                   political subdivision.                                   and                                                   determines—
                                                                                                               (3) The prior history of the individual,             (a) Fails to report information
                                                   § 1003.610       Amount of penalties.                    organization, or entity in its willingness            concerning—
                                                      (a) The OIG may impose a penalty of                   or refusal to comply with informal                      (1) A payment made under an
                                                   not more than—                                           requests to correct violations.                       insurance policy, self-insurance, or
                                                      (1) $5,000 for each individual                           (b) The use of a disclaimer of                     otherwise for the benefit of a physician,
                                                   violation resulting from the misuse of                                                                         dentist, or other health care practitioner
                                                                                                            affiliation with the United States
                                                   Departmental, CMS, or Medicare or                                                                              in settlement of, or in satisfaction in
                                                                                                            Government, the Department, or its
                                                   Medicaid program words, letters,                                                                               whole or in part of, a medical
                                                                                                            programs will not be considered as a
                                                   symbols, or emblems as described in                                                                            malpractice claim or action or a
                                                                                                            mitigating factor in determining the
                                                   § 1003.600(a) relating to printed media;                                                                       judgment against such a physician,
                                                      (2) $5,000 for each individual                        amount of penalty in accordance with
                                                                                                            § 1003.600(a).                                        dentist, or other practitioner in
                                                   violation in the case of such misuse
                                                                                                            ■ 9. Add and reserve subpart G to read                accordance with section 421 of Public
                                                   related to an electronic message, Web
                                                                                                            as follows:                                           Law 99–660 (42 U.S.C. 11131) and as
                                                   page, or telemarketing solicitation;
                                                      (3) $25,000 for each individual                                                                             required by regulations at 45 CFR part
                                                   violation in the case of such misuse                     Subpart G—[Reserved]                                  60 or
                                                   related to a broadcast or telecast.                                                                              (2) An adverse action required to be
                                                                                                            ■ 10. Add subparts H through M to read                reported under section 1128E, as
                                                      (b) For purposes of this paragraph, a                 as follows:
                                                   violation is defined as—                                                                                       established by section 221 of Public Law
                                                      (1) In the case of a direct mailing                   Subpart H—CMPs for Adverse Action                     104–191.
                                                   solicitation or an advertisement, each                   Reporting and Disclosure Violations                     (b) Improperly discloses, uses, or
                                                   separate piece of mail that contains one                 Sec.                                                  permits access to information reported
                                                   or more words, letters, symbols, or                      1003.800 Basis for civil money penalties.             in accordance with part B of Title IV of
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   emblems related to a determination                       1003.810 Amount of penalties.                         Public Law 99–660 (42 U.S.C. 11137) or
                                                   under § 1003.600(a);                                     1003.820 Determinations regarding the                 regulations at 45 CFR part 60. (The
                                                      (2) In the case of a printed solicitation                  amount of penalties.                             disclosure of information reported in
                                                   or an advertisement, each reproduction,                  Subpart I—CMPs for Select Agent Program               accordance with part B of Title IV in
                                                   reprinting, or distribution of such item                 Violations                                            response to a subpoena or a discovery
                                                   related to a determination under                         1003.900 Basis for civil money penalties.             request is considered an improper
                                                   § 1003.600(a);                                           1003.910 Amount of penalties.                         disclosure in violation of section 427 of
                                                      (3) In the case of a broadcast or                     1003.920 Determinations regarding the                 Public Law 99–660. However,
                                                   telecast, each airing of a single                            amount of penalties.                              disclosure or release by an entity of


                                              VerDate Mar<15>2010    18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00021   Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27100                       Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   original documents or underlying                          the person’s physical location as                         (a) Knowingly and willfully makes or
                                                   records from which the reported                           identified on the person’s certificate of              causes to be made or induces or seeks
                                                   information is obtained or derived is not                 registration; or                                       to induce the making of any false
                                                   considered an improper disclosure in                        (c) The person previously received a                 statement or representation of a material
                                                   violation of section 427 of Pub. L. 99–                   statement of deficiency from the                       fact with respect to—
                                                   660.)                                                     Department or the Department of                           (1) The compliance of any policy with
                                                                                                             Agriculture for the same or substantially              the standards and requirements for
                                                   § 1003.810       Amount of penalties.                     similar conduct.                                       Medicare supplemental policies set
                                                     The OIG may impose a penalty of not                                                                            forth in section 1882(c) of the Act or in
                                                   more than—                                                Subpart J—CMPs, Assessments, and                       promulgating regulations, or
                                                     (a) $11,000 for each payment for                        Exclusions for Beneficiary Inducement                     (2) The use of the emblem designed
                                                   which there was a failure to report                       Violations                                             by the Secretary under section 1882(a)
                                                   required information in accordance with                                                                          of the Act for use as an indication that
                                                                                                             § 1003.1000 Basis for civil money
                                                   § 1003.800(a)(1) or for each improper                     penalties, assessments, and exclusions.                a policy has received the Secretary’s
                                                   disclosure, use, or access to information                                                                        certification;
                                                                                                                (a) The OIG may impose a penalty, an
                                                   in accordance with a determination                                                                                  (b) Falsely assumes or pretends to be
                                                                                                             assessment, and an exclusion against
                                                   under § 1003.800(b); and                                                                                         acting, or misrepresents in any way that
                                                                                                             any person who it determines offers or
                                                     (b) $25,000 against a health plan for                                                                          he or she is acting, under the authority
                                                                                                             transfers remuneration (as defined in
                                                   each failure to report information on an                                                                         of or in association with Medicare or
                                                                                                             § 1003.110) to any individual eligible for
                                                   adverse action required to be reported in                                                                        any Federal agency, for the purpose of
                                                                                                             benefits under Medicare or a State
                                                   accordance with section 1128E of the                                                                             selling or attempting to sell insurance,
                                                                                                             health care program that such person
                                                   Act and § 1003.800(a)(2).                                                                                        or in such pretended character
                                                                                                             knows, or should know, is likely to
                                                                                                             influence such individual to order or to               demands, or obtains money, paper,
                                                   § 1003.820 Determinations regarding the
                                                   amount of penalties.                                      receive from a particular provider,                    documents, or anything of value;
                                                                                                             practitioner, or supplier, any item or                    (c) Knowingly, directly, or through his
                                                     In determining the amount of any                                                                               or her agent, mails or causes to be
                                                   penalty in accordance with this subpart,                  service for which payment may be
                                                                                                             made, in whole or in part, under                       mailed any matter for the advertising,
                                                   the OIG will consider the factors listed                                                                         solicitation, or offer for sale of a
                                                   in § 1003.140.                                            Medicare or a State health care program.
                                                                                                                (b) The OIG may impose a penalty                    Medicare supplemental policy, or the
                                                   Subpart I—CMPs for Select Agent                           against any person who it determines                   delivery of such a policy, in or into any
                                                   Program Violations                                        offered any financial or other incentive               State in which such policy has not been
                                                                                                             for an individual entitled to benefits                 approved by the State commissioner or
                                                   § 1003.900       Basis for civil money penalties.         under Medicare not to enroll, or to                    superintendent of insurance;
                                                      The OIG may impose a penalty                           terminate enrollment, under a group                       (d) Issues or sells to any individual
                                                   against any person who it determines in                   health plan or a large group health plan               entitled to benefits under Part A or
                                                   accordance with this part is involved in                  that would, in the case of such                        enrolled under Part B of title XVIII of
                                                   the possession or use in the United                       enrollment, be a primary plan as                       the Act—
                                                   States, receipt from outside the United                   defined in section 1862(b)(2)(A) of the                   (1) A health insurance policy with
                                                   States or transfer within the United                      Act.                                                   knowledge that the policy duplicates
                                                   States, of select agents and toxins in                                                                           health benefits to which the individual
                                                   violation of 42 CFR part 73 as                            § 1003.1010 Amount of penalties and                    is otherwise entitled under title XVIII or
                                                                                                             assessments.                                           title XIX of the Act,
                                                   determined by the HHS Secretary, in
                                                   accordance with sections 351A(b) and                        The OIG may impose a penalty of not                     (2) A health insurance policy (other
                                                   (c) of the Public Health Service Act.                     more than—                                             than a Medicare supplemental policy)
                                                                                                               (a) $10,000 for each individual                      with knowledge that the policy
                                                   § 1003.910       Amount of penalties.                     violation of § 1003.1000(a) and an                     duplicates health benefits to which the
                                                     For each individual violation of                        assessment of not more than 3 times the                individual is otherwise entitled, other
                                                   section 351A(b) or (c) of the Public                      amount for each item or service                        than benefits to which the individual is
                                                   Health Service Act or 42 CFR part 73,                     wrongfully claimed; and                                entitled under a requirement of State or
                                                   the OIG may impose a penalty of not                         (b) $5,000 for each individual                       Federal law,
                                                   more than $250,000 in the case of an                      violation of § 1003.1000(b).                              (3) In the case of an individual not
                                                   individual, and not more than $500,000                                                                           electing a Part C plan, a Medicare
                                                                                                             § 1003.1020 Determinations regarding the
                                                   in the case of any other person.                          amount of penalties and assessments and
                                                                                                                                                                    supplemental policy with knowledge
                                                                                                             the period of exclusion.                               that the individual is entitled to benefits
                                                   § 1003.920 Determinations regarding the                                                                          under another Medicare supplemental
                                                   amount of penalties.                                        In determining the amount of any
                                                                                                                                                                    policy, or
                                                                                                             penalty or assessment or the period of
                                                     In considering the factors listed in                                                                              (4) In the case of an individual
                                                                                                             exclusion under this subpart, the OIG
                                                   § 1003.140, aggravating circumstances                                                                            electing a Part C plan, a Medicare
                                                                                                             will consider the factors listed in
                                                   include:                                                                                                         supplemental policy with knowledge
                                                     (a) The Responsible Official                            § 1003.140, as well as the amount of
                                                                                                                                                                    that the policy duplicates health
                                                                                                             remuneration or the amount or nature of
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   participated in or knew, or should have                                                                          benefits to which the individual is
                                                   known, of the violation;                                  any other incentive.
                                                                                                                                                                    otherwise entitled under the Part C plan
                                                     (b) The violation was a contributing                    Subpart K—CMPs for the Sale of                         or under another Medicare
                                                   factor, regardless of proportionality, to                 Medicare Supplemental Policies                         supplemental policy;
                                                   an unauthorized individual’s access to                                                                              (e) Issues or sells a health insurance
                                                   or possession of a select agent or toxin,                 § 1003.1100       Basis for civil money                policy (other than a policy described in
                                                   an individual’s exposure to a select                      penalties.                                             section 1882(d)(3)(A)(vi)(III)) to any
                                                   agent or toxin, or the unauthorized                         The OIG may impose a penalty                         individual entitled to benefits under
                                                   removal of a select agent or toxin from                   against any person who—                                Part A or enrolled under Part B of title


                                              VerDate Mar<15>2010     18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00022    Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                                27101

                                                   XVIII of the Act who is applying for a                    (b) $10,000 for each day that such                   programs, as applicable, in accordance
                                                   health insurance policy and fails to                    information has not been provided in                   with this part, the OIG must serve on
                                                   furnish the appropriate disclosure                      violation of § 1003.1200(b)(1).                        the respondent, in any manner
                                                   statement described in section                                                                                 authorized by Rule 4 of the Federal
                                                                                                           § 1003.1220 Determinations regarding the
                                                   1882(d)(3)(A)(vii); or                                                                                         Rules of Civil Procedure, written notice
                                                                                                           amount of penalties.
                                                      (f) Issues or sells a Medicare                                                                              of the OIG’s intent to impose a penalty,
                                                   supplemental policy to any individual                     In determining the amount of the                     an assessment, and an exclusion, as
                                                   eligible for benefits under Part A or                   penalty in accordance with this subpart,               applicable. The notice will include—
                                                   enrolled under Part B of title XVIII of                 the OIG will consider the factors listed                 (1) Reference to the statutory basis for
                                                   the Act without obtaining the written                   in § 1003.140.                                         the penalty, assessment, and exclusion;
                                                   statement or the written                                                                                         (2) A description of the violation for
                                                                                                           Subpart M—CMPs for Notifying a
                                                   acknowledgment described in section                                                                            which the penalty, assessment, and
                                                                                                           Skilled Nursing Facility, Nursing
                                                   1882(d)(3)(B) of the Act.                                                                                      exclusion are proposed (except in cases
                                                                                                           Facility, Home Health Agency, or
                                                                                                                                                                  when the OIG is relying upon statistical
                                                   § 1003.1110      Amount of penalties.                   Community Care Setting of a Survey
                                                                                                                                                                  sampling in accordance with
                                                      The OIG may impose a penalty of not                  § 1003.1300       Basis for civil money                § 1003.1580, in which case the notice
                                                   more than—                                              penalties.                                             shall describe those claims and requests
                                                      (a) $5,000 for each individual                         The OIG may impose a penalty                         for payment constituting the sample
                                                   violation of § 1003.1100(a), (b), or (c).               against any individual who notifies, or                upon which the OIG is relying and will
                                                      (b) $25,000 for each individual                      causes to be notified, a skilled nursing               briefly describe the statistical sampling
                                                   violation of § 1003.1100(d), (e), or (f) by             facility, nursing facility, home health                technique used by the OIG);
                                                   a seller who is also the issuer of the                  agency, a community care setting, of the                 (3) The reason why such violation
                                                   policy; and                                             time or date on which a survey pursuant                subjects the respondent to a penalty, an
                                                      (c) $15,000 for each individual                      to sections 1819(g)(2)(A), 1919(g)(2)(A),              assessment, and an exclusion,
                                                   violation of § 1003.1100(d), (e), or (f) by             1891(c)(1), or 1929(i) of the Act is                     (4) The amount of the proposed
                                                   a seller who is not the issuer of the                   scheduled to be conducted.                             penalty and assessment, and the length
                                                   policy.                                                                                                        of the period of proposed exclusion
                                                                                                           § 1003.1310       Amount of penalties.                 (where applicable);
                                                   § 1003.1120 Determinations regarding the
                                                   amount of penalties.                                      The OIG may impose a penalty of not                    (5) Any factors and circumstances
                                                                                                           more than $2,000 for each individual                   described in this part that were
                                                     In determining the amount of the
                                                                                                           violation of § 1003.1300.                              considered when determining the
                                                   penalty in accordance with this subpart,
                                                                                                                                                                  amount of the proposed penalty and
                                                   the OIG will consider the factors listed                § 1003.1320 Determinations regarding the
                                                                                                                                                                  assessment and the length of the period
                                                   in § 1003.140.                                          amount of penalties.
                                                                                                                                                                  of exclusion;
                                                                                                             In determining the amount of the                       (6) Instructions for responding to the
                                                   Subpart L—CMPs for Drug Price                           penalty in accordance with this subpart,
                                                   Reporting                                                                                                      notice, including—
                                                                                                           the OIG will consider the factors listed                 (i) A specific statement of the
                                                   § 1003.1200      Basis for civil money                  in § 1003.140.                                         respondent’s right to a hearing and
                                                   penalties.                                              ■ 11. Add and reserve subpart N to read                  (ii) A statement that failure to request
                                                                                                           as follows:                                            a hearing within 60 days permits the
                                                      The OIG may impose a penalty
                                                   against—                                                                                                       imposition of the proposed penalty,
                                                                                                           Subpart N—[Reserved]
                                                      (a) Any wholesaler, manufacturer, or                                                                        assessment, and exclusion without right
                                                   direct seller of a covered outpatient drug              ■   12. Add subpart O to read as follows:              of appeal; and
                                                   that—                                                   Subpart O—Procedures for the Imposition
                                                                                                                                                                    (7) In the case of a notice sent to a
                                                      (1) Refuses a request for information                of CMPs, Assessments, and Exclusions                   respondent who has an agreement under
                                                   by, or                                                                                                         section 1866 of the Act, the notice also
                                                                                                           Sec.
                                                      (2) Knowingly provides false                         1003.1500 Notice of proposed
                                                                                                                                                                  indicates that the imposition of an
                                                   information to, the Secretary about                          determination.                                    exclusion may result in the termination
                                                   charges or prices in connection with a                  1003.1510 Failure to request a hearing.                of the respondent’s provider agreement
                                                   survey being conducted pursuant to                      1003.1520 Collateral estoppel.                         in accordance with section 1866(b)(2)(C)
                                                   section 1927(b)(3)(B) of the Act; and                   1003.1530 Settlement.                                  of the Act.
                                                      (b) Any manufacturer with an                         1003.1540 Judicial review.                               (b) Any person upon whom the OIG
                                                   agreement under section 1927 of the Act                 1003.1550 Collection of penalties and                  has proposed the imposition of a
                                                   that—                                                        assessments.                                      penalty, an assessment, or an exclusion
                                                      (1) Fails to provide any information                 1003.1560 Notice to other agencies.                    may appeal such proposed penalty,
                                                                                                           1003.1570 Limitations.
                                                   required by section 1927(b)(3)(A) of the                                                                       assessment, or exclusion to the DAB in
                                                                                                           1003.1580 Statistical sampling.
                                                   Act by the deadlines specified therein,                 1003.1590 Effect of exclusion.                         accordance with 42 CFR 1005.2. The
                                                   or                                                      1003.1600 Reinstatement.                               provisions of 42 CFR part 1005 govern
                                                      (2) Knowingly provides any item                                                                             such appeals.
                                                   information required by section                         Subpart O—Procedures for the                             (c) If the respondent fails, within the
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   1927(b)(3)(A) or (B) of the Act that is                 Imposition of CMPs, Assessments, and                   time period permitted, to exercise his or
                                                   false.                                                  Exclusions                                             her right to a hearing under this section,
                                                                                                                                                                  any exclusion, penalty, or assessment
                                                   § 1003.1210      Amount of penalties.                   § 1003.1500 Notice of proposed                         becomes final.
                                                     The OIG may impose a penalty of not                   determination.
                                                   more than—                                                (a) If the OIG proposes a penalty and,               § 1003.1510   Failure to request a hearing.
                                                     (a) $100,000 for each individual                      when applicable, an assessment, or                       If the respondent does not request a
                                                   violation of § 1003.1200(a) or                          proposes to exclude a respondent from                  hearing within 60 days after the notice
                                                   § 1003.1200(b)(2); and                                  participation in all Federal health care               prescribed by § 1003.1500(a) is received,


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00023    Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                   27102                     Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules

                                                   as determined by 42 CFR 1005.2(c), by                   § 1003.1550 Collection of penalties and                § 1003.1570   Limitations.
                                                   the respondent, the OIG may impose the                  assessments.                                             No action under this part will be
                                                   proposed penalty, assessment, and                          (a) Once a determination by the                     entertained unless commenced, in
                                                   exclusion, or any less severe penalty,                  Secretary has become final, collection of              accordance with § 1003.1500(a), within
                                                   assessment, or exclusion. The OIG shall                 any penalty and assessment will be the                 6 years from the date on which the
                                                   notify the respondent in any manner                     responsibility of CMS, except in the                   violation occurred.
                                                   authorized by Rule 4 of the Federal                     case of the Maternal and Child Health
                                                   Rules of Civil Procedure of any penalty,                Services Block Grant Program, in which                 § 1003.1580   Statistical sampling.
                                                   assessment, and exclusion that have                     the collection will be the responsibility                (a) In meeting the burden of proof in
                                                   been imposed and of the means by                        of the Public Health Service (PHS); in                 42 CFR 1005.15, the OIG may introduce
                                                   which the respondent may satisfy the                    the case of the Social Services Block                  the results of a statistical sampling
                                                   judgment. The respondent has no right                   Grant program, in which the collection                 study as evidence of the number and
                                                   to appeal a penalty, an assessment, or an               will be the responsibility of the Office               amount of claims and/or requests for
                                                   exclusion with respect to which he or                   of Human Development Services; and in                  payment as described in this part that
                                                   she has not requested a hearing.                        the case of violations of subpart I,                   were presented, or caused to be
                                                                                                           collection will be the responsibility of               presented, by the respondent. Such a
                                                   § 1003.1520      Collateral estoppel.                   the Program Support Center (PSC).                      statistical sampling study, if based upon
                                                      (a) Where a final determination                         (b) A penalty or an assessment                      an appropriate sampling and computed
                                                   pertaining to the respondent’s liability                imposed under this part may be                         by valid statistical methods, shall
                                                   for acts that violate this part has been                compromised by the OIG and may be                      constitute prima facie evidence of the
                                                   rendered in any proceeding in which                     recovered in a civil action brought in                 number and amount of claims or
                                                   the respondent was a party and had an                   the United States district court for the               requests for payment as described in
                                                   opportunity to be heard, the respondent                 district where the claim was presented                 this part.
                                                   shall be bound by such determination in                 or where the respondent resides.                         (b) Once the OIG has made a prima
                                                   any proceeding under this part.                            (c) The amount of penalty or                        facie case as described in paragraph (a)
                                                                                                           assessment, when finally determined, or                of this section, the burden of production
                                                      (b) In a proceeding under this part, a                                                                      shall shift to the respondent to produce
                                                   person is estopped from denying the                     the amount agreed upon in compromise,
                                                                                                           may be deducted from any sum then or                   evidence reasonably calculated to rebut
                                                   essential elements of the criminal                                                                             the findings of the statistical sampling
                                                   offense if the proceeding—                              later owing by the United States
                                                                                                           Government or a State agency to the                    study. The OIG will then be given the
                                                      (1) Is against a person who has been                 person against whom the penalty or                     opportunity to rebut this evidence.
                                                   convicted (whether upon a verdict after                 assessment has been assessed.                          § 1003.1590   Effect of exclusion.
                                                   trial or upon a plea of guilty or nolo                     (d) Matters that were raised, or that
                                                   contendere) of a Federal crime charging                                                                          The effect of an exclusion will be as
                                                                                                           could have been raised, in a hearing                   set forth in 42 CFR 1001.1901.
                                                   fraud or false statements, and                          before an ALJ or in an appeal under
                                                      (2) Involves the same transactions as                section 1128A(e) of the Act may not be                 § 1003.1600   Reinstatement.
                                                   in the criminal action.                                 raised as a defense in a civil action by                 A person who has been excluded in
                                                                                                           the United States to collect a penalty                 accordance with this part may apply for
                                                   § 1003.1530      Settlement.
                                                                                                           under this part.                                       reinstatement at the end of the period of
                                                     The OIG has exclusive authority to                                                                           exclusion. The OIG will consider any
                                                                                                           § 1003.1560       Notice to other agencies.
                                                   settle any issues or case without consent                                                                      request for reinstatement in accordance
                                                   of the ALJ.                                                (a) Whenever a penalty, an                          with the provisions of 42 CFR
                                                                                                           assessment, or an exclusion becomes                    1001.3001 through 1001.3004.
                                                   § 1003.1540      Judicial review.                       final, the following organizations and
                                                      (a) Section 1128A(e) of the Act                      entities will be notified about such                   PART 1005 — [AMENDED]
                                                   authorizes judicial review of a penalty,                action and the reasons for it: The
                                                                                                           appropriate State or local medical or                  ■ 13. The authority citation for Part
                                                   an assessment, or an exclusion that has                                                                        1005 continues to read as follows:
                                                   become final. The only matters subject                  professional association; the appropriate
                                                                                                           quality improvement organization; as                     Authority: 42 U.S.C. 405(a), 405(b), 1302,
                                                   to judicial review are those that the                                                                          1320a–7, 1320a–7a and 1320c–5.
                                                   respondent raised pursuant to 42 CFR                    appropriate, the State agency that
                                                   1005.21, unless the court finds that                    administers each State health care                     ■ 14. Section 1005.4 is amended by
                                                   extraordinary circumstances existed that                program; the appropriate Medicare                      republishing the introductory text for
                                                   prevented the respondent from raising                   carrier or intermediary; the appropriate               paragraph (c) and revising paragraphs
                                                   the issue in the underlying                             State or local licensing agency or                     (c)(5) and (c)(6) to read as follows:
                                                   administrative appeal.                                  organization (including the Medicare
                                                                                                           and Medicaid State survey agencies);                   § 1005.4   Authority of the ALJ.
                                                      (b) A respondent must exhaust all                    and the long-term-care ombudsman. In                   *     *     *    *     *
                                                   administrative appeal procedures                        cases involving exclusions, notice will                  (c) The ALJ does not have the
                                                   established by the Secretary or required                also be given to the public of the                     authority to—
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                                   by law before a respondent may bring an                 exclusion and its effective date.                      *     *     *    *     *
                                                   action in Federal court, as provided in                    (b) When the OIG proposes to exclude                  (5) Review the exercise of discretion
                                                   section 1128A(e) of the Act, concerning                 a nursing facility under this part, the                by the OIG to exclude an individual or
                                                   any penalty, assessment, or exclusion                   OIG will, at the same time the facility                entity under section 1128(b) of the Act
                                                   imposed pursuant to this part.                          is notified, notify the appropriate State              or under part 1003 of this chapter, or
                                                      (c) Administrative remedies are                      licensing authority, the State Office of               determine the scope or effect of the
                                                   exhausted when a decision becomes                       Aging, the long-term care ombudsman,                   exclusion;
                                                   final in accordance with 42 CFR                         and the State Medicaid agency of the                     (6) Set a period of exclusion at zero,
                                                   1005.21(j).                                             OIG’s intention to exclude the facility.               or reduce a period of exclusion to zero,


                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00024    Fmt 4701   Sfmt 4702   E:\FR\FM\12MYP3.SGM   12MYP3
                                                                             Federal Register / Vol. 79, No. 91 / Monday, May 12, 2014 / Proposed Rules                                                  27103

                                                   in any case where the ALJ finds that an                 described in section 1128(b) of the Act                 Dated: January 16, 2014.
                                                   individual or entity committed an act                   or under part 1003 of this chapter; or                Daniel R. Levinson,
                                                                                                           *    *     *     *    *                               Inspector General.
                                                                                                                                                                   Approved: January 28, 2014.
                                                                                                                                                                 Kathleen Sebelius,
                                                                                                                                                                 Secretary.
                                                                                                                                                                 [FR Doc. 2014–10394 Filed 5–9–14; 8:45 am]
                                                                                                                                                                 BILLING CODE 4152–01–P
emcdonald on DSK67QTVN1PROD with PROPOSALS3




                                              VerDate Mar<15>2010   18:34 May 09, 2014   Jkt 232001   PO 00000   Frm 00025   Fmt 4701   Sfmt 9990   E:\FR\FM\12MYP3.SGM   12MYP3
